U.S. DEPARTMENT OF COMMERCE
        Office of Inspector General




                Semiannual Report
                  to the Congress


                               March 31, 1997
         Under the provisions of the Inspector General Act of 1978, Public Law 95-451, as amended, we report
twice yearly to the Congress on the activities of the Office of Inspector General. We describe the major problems,
abuses, and deficiencies identified during audits, inspections, and investigations, along with our recommendations
for corrective action.
         Requests for this document, in this form or in an alternative format to meet the needs of persons with
disabilities, should be addressed to Office of Inspector General, U.S. Department of Commerce, Room 7099C
HCHB, 14th & Constitution Ave., NW, Washington, DC 20230. Telephone requesters can call (202) 482-0231 or
TDD (202) 482-5897.
                       Message for the Secretary



April 30, 1997

The Honorable William M. Daley
Secretary of Commerce
Washington, DC 20230

Mr. Secretary:

         This report provides a comprehensive overview of Office of Inspector General activities for the first half of
fiscal year 1997. Section 5 of the Inspector General Act requires that you transmit this report, with any comments
you may wish to add, to the appropriate congressional committees within 30 days.
         It is clear that the Congress is becoming extremely active in its authorization, appropriation, and oversight
roles relative to the Department and its programs. In addition, the Congress has expressed its intent to take its
consultation role under the Government Performance and Results Act very seriously.
         We plan to continue our work with the Department to strengthen its financial management under the Chief
Financial Officers Act and to assist managers in using the information provided in the financial statements to
improve the Department’s business practices. At the same time, the Department must continue its efforts to improve
internal controls and the accuracy of financial information, correct the remaining internal control weaknesses, and
acquire experienced financial management leadership. It also needs to ensure the successful implementation of the
Commerce Administrative Management System, which is needed for producing improved financial management and
business information and for resolving “Year 2000" problems.
         The Department must also address its programmatic, as well as financial, material weaknesses, as
identified recently in reports by our office and by the General Accounting Office. Planning for the 2000 decennial
census, completing the National Weather Service modernization, determining the future of the NOAA Corps and
the NOAA fleet, and resolving Advanced Technology Program concerns are just some of the management issues
that we must all address. I welcome your commitment to do so.
        Through the continued cooperative approach between your staff and this office, we can more effectively
monitor the implementation of key Department programs and activities, and meet the informational and oversight
needs of the Congress.

                                                   Sincerely,




                                                   Francis D. DeGeorge
                                                   Inspector General

Enclosure
                     Table of Contents


MESSAGE FOR THE CONGRESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
 Foreword . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
 Major Areas of Concern . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    NOAA Fleet and NOAA Corps . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    2000 Decennial Census . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
    Advanced Technology Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
    NOAA Satellite Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
    NWS Modernization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    Facilities Planning and Laboratory Consolidation . . . . . . . . . . . . . . . . . . 10
    NTIS Expansionary Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
    Seafood Inspection Performance Based Organization . . . . . . . . . . . . . . . . 13
 Federal Managers’ Financial Integrity Act . . . . . . . . . . . . . . . . . . . . . . . . . . 14
 Resolution and Follow-Up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
 Statistical Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

AGENCY OVERVIEWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               18
  Bureau of Export Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            18
  Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  21
  Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . .                30
     Bureau of Economic Analysis
     Bureau of the Census
  International Trade Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           34
  Minority Business Development Agency . . . . . . . . . . . . . . . . . . . . . . . . . . .                   38
  National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . .                      41
  National Telecommunications and Information Administration . . . . . . . . . . .                             53
  Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          56
  Technology Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          58
     National Institute of Standards and Technology
     National Technical Information Service

DEPARTMENTAL MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

OIG ORGANIZATIONAL CHART AND TELEPHONE NUMBERS . . . . . . 81

REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 82

TABLES AND APPENDIXES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 86

GLOSSARY OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 98
                      Message for the Congress

                                                FOREWORD
   Both the Secretary of Commerce and the Congress are vitally interested in improving program performance and
accountability. The Chief Financial Officers Act of 1990 and the Government Management Reform Act of 1994
established the foundation for improving management and financial accountability among federal agencies. The
Government Performance and Results Act of 1993 is aimed directly at improving agencies’ program performance
by generating the information congressional and executive branch decision-makers need in considering measures to
improve government performance and reduce costs. The Congress has sent a strong message that agencies are to
clearly define their missions; establish long-term strategic as well as annual goals; measure performance against
these goals; and report publicly on how well they are doing.
   To assist the Department of Commerce in meeting the challenges presented by these performance management
acts, we plan in-depth reviews of the Department’s and its bureaus’ processes for identifying performance
indicators and the appropriateness of those indicators. These reviews will build on our general assessment of the
information contained in the overview sections of financial statements. This data should enable managers to more
efficiently manage these programs.
   We still have serious concerns about a number of major program initiatives, among them the NOAA fleet and
Corps, the National Weather Service modernization program, the overhaul of the Department’s financial
management systems, and preparations for the 2000 decennial census. In addition, we are increasingly concerned
about a number of performance based organization (PBO) proposals affecting the Department of Commerce. Our
concerns encompass a variety of areas, ranging from missing requirements in the legislative proposals to the
readiness of some entities to become PBOs.
   We look forward to providing independent, objective analyses to both administration and congressional decision-
makers. We are dedicated to improving performance management and the information necessary to ensure
accountability.




                                                 Francis D. DeGeorge
                                                 Inspector General




                                                       -1-
Message for the Congress




                                MAJOR AREAS OF CONCERN

                             This section highlights what we consider to be the major areas of
                     concern for the Department. By addressing these areas, the Department and
                     the Congress can improve program management, eliminate serious
                     operational problems, decrease vulnerability to fraud and waste, and
                     achieve significant cost savings.

                     NOAA Fleet and NOAA Corps
                     Decommissioning the Fleet
                              Since 1992, when NOAA received congressional authorization to
                     implement a 15-year fleet replacement and modernization plan at an
                     estimated cost of $1.9 billion, this office, the Congress, OMB, and others
                     have repeatedly urged NOAA to explore alternatives to an agency-owned
                     and operated fleet for acquiring marine data. As stated in our 1996 report
                     on NOAA’s fleet operations and its 1995 modernization plan (see March
                     1996 issue, page 43), we do not believe that NOAA should be in the
                     business of designing, owning, maintaining, or operating ships. We
                     recommended that NOAA terminate its fleet modernization plan efforts;
                     cease investing in its ships; begin immediately to decommission, sell, or
                     transfer them; and contract for the required services.
                              In March 1997, the Inspector General testified before the House
                     Science Subcommittee on Energy and Environment on our current work
                     related to the NOAA fleet and Corps. In our testimony, we noted that
                     despite specific guidance from the Congress, and similar recommendations
                     from our office and prestigious scientific panels, NOAA continues to plan
                     investments of millions of dollars in its aging in-house fleet rather than
                     using these funds for more cost-effective alternatives. We continue to
                     challenge many of NOAA’s current actions and plans related to the fleet.
                     Specifically, in our view, NOAA has not adequately explained:
                     ! Why it has decided to spend millions of dollars during the next two years
                       investing in deteriorating ships without first fully exploring private
                       build/lease or charter options like those recommended in our March 1996
                       report and by the Congress.
                     ! Why it needs to buy new cutting-edge hydrographic survey technology
                       and data processing equipment for its ships when the private sector is
                       quite capable of doing the work for NOAA at a lower cost.



                                     -2-
                                                                          Message for the Congress




! Why it has proposed using 1998 and future years’ appropriations to
  prepare designs for six new fishery research vessels without first having
  (1) informed the Congress of its plans to do so, (2) completed an
  independent analysis of the performance requirements and ship support
  or data required by each program mission, or (3) discussed its
  performance requirements with the private sector.
         NOAA’s continued reliance on its aging in-house fleet carries an
unnecessarily high price tag, including wasteful and unwise investments that
are contrary to congressional intent and our earlier recommendations. These
funds should be used for more cost-effective alternatives that would provide
better ship support services to NOAA’s programs. Instead of performing
narrowly defined studies on the cost of operating specific vessels, NOAA
should be evaluating and comparing the overall costs of alternative means of
obtaining equivalent services.

Eliminating the Corps
          Traditionally, the NOAA Corps has had three primary functions:
(1) operate and maintain NOAA’s ships, (2) operate and maintain NOAA’s
aircraft, and (3) provide scientific and engineering support to the line
offices. These functions are currently carried out by approximately 300
officers, with support from 165 general service civilians and 300 wage
grade mariners.
         NOAA has drafted legislation and developed transition plans to
“eliminate” its Commissioned Corps. The legislation would not eliminate
NOAA’s role in operating ships. It would simply convert NOAA’s corps of
commissioned officers to civilian status. We have reviewed a number of the
draft plans for the disestablishment of the NOAA Corps and do not believe
that any of them are completely acceptable. The plans promote neither the
restructuring of operations that the Congress encouraged, nor the increased
efficiencies that the National Performance Review identified.
         We believe that greater efficiencies and economies can be achieved
by (1) outsourcing for ship operations and maintenance; (2) eliminating
aircraft activities that are not directly related to NOAA’s mission; and (3)
converting to civil service positions only line-office billets that are fully
funded by the line offices. In our view, these changes can be accomplished
without disrupting essential programs, and programs would receive better
services without the need for major capital investments in ships and aircraft,
thereby avoiding future expenditures totaling hundreds of millions of
dollars. The proposed legislation and transition plan should not be
constructed to prevent or delay implementation of these recommendations.


                                                        -3-
Message for the Congress




                     2000 Decennial Census
                              Given the size, cost, complexity, and national importance of the
                     decennial census, as well as our longstanding concerns about Census Bureau
                     management, oversight of bureau planning for the 2000 census has remained
                     one of our top priorities during this semiannual period. Over the past six
                     months, we testified before the Congress and briefed bureau, departmental,
                     and congressional principals and their staff members on our concerns about
                     the lack of adequate progress on major design components and inadequate
                     decennial management (see page 30).
                              In addition, we recommended to the Secretary that decennial man-
                     agement be identified as a material weakness in the Department’s FY 1996
                     year-end report to the Congress under the Federal Managers’ Financial
                     Integrity Act (see page 14). This designation emphasizes the Department’s
                     recognition of the seriousness of decennial management concerns.
                     Demonstrating the same level of concern, the General Accounting Office
                     recently added the decennial census to the Comptroller General’s
                     governmentwide list of programs at especially high risk for waste, fraud,
                     abuse, or mismanagement.
                              We strongly support the use of statistical sampling to complete a
                     timely, accurate, and cost-effective count. We remain concerned, however,
                     about the bureau’s ability to successfully manage, control, and integrate the
                     many new processes to be used in the 2000 census, and about the lack of a
                     completed census design. In a November 1995 report, we recommended that
                     the bureau move swiftly and decisively to develop and complete a sound
                     design (see March 1996 issue, page 29).
                             Some of our concerns about the lack of major design decisions have
                     been addressed. For example, the bureau recently announced a decision
                     about which method it will use to correct the census for missed or double-
                     counted people. It also announced a refinement to its plan to complete field
                     enumeration using sampling. However, the research necessary to address
                     important questions about accuracy and other implications of the specific
                     sampling design remains incomplete. Members of Congress, among others,
                     have raised questions about the bureau’s plans, but the bureau has not yet
                     provided satisfactory responses.
                              In our 1995 report, we recommended that the bureau organize the
                     decennial area to create a central integrating function reporting to a manager
                     with adequate authority to coordinate the entire complex, interdependent
                     enterprise. We hoped such a change would, among other things, clarify how,
                     by whom, and on what basis decisions are made. Almost two years later, the
                     bureau is moving in the right direction. A management team for integrating

                                      -4-
                                                                         Message for the Congress




decennial activities is now in place, and a management information system
for tracking the decennial census is being developed.

        The bureau has also taken some steps to better control the risks
associated with developing, acquiring, and integrating the automated
systems to be used in the 2000 census. In particular, in response to
recommendations from our 1996 inspection of the decennial data capture
system project (see September 1996 issue, page 27), the bureau adopted a
lower-risk acquisition strategy for the system, and recently selected a
contractor.
         However, bureau responsibilities for systems development,
acquisition, and integration are highly fragmented. We believe this
fragmentation is contributing to the bureau’s slow pace in planning,
specifying, developing, and acquiring its 2000 decennial systems. A planned
bureau reorganization, which would consolidate more of the systems
development and acquisition activities under a single office, will go a long
way toward improving systems integration. However, even with this
reorganization, many systems responsibilities will still be dispersed. A
related concern is the bureau’s slow pace in staffing its systems and
contracting organization.
          To ensure success in 2000, we believe two things must happen.
First, the bureau must immediately complete a sound census design. Second,
the bureau must be given the resources it needs to implement this design,
along with the freedom to use its scientific judgment in researching, testing,
and selecting promising methods, such as statistical sampling, for use in the
decennial census. Cutting funds at this critical juncture in the planning
process or restricting the bureau’s freedom to select the most promising
methods would result in an expensive and flawed count.

Advanced Technology Program
        NIST’s Advanced Technology Program (ATP) was established by
the Omnibus Trade and Competitiveness Act of 1988, as amended by the
American Technology Preeminence Act of 1991 (15 U.S.C. 278n, as
amended). ATP is a cost-sharing program designed to accelerate the
development and commercialization of promising high-risk technologies by
American businesses by providing funds to individual companies and joint
ventures for research and development on pre-competitive generic
technologies.




                                                        -5-
Message for the Congress




                     Use of Commercial Prices
                             In our examination during the last two years of accounting
                     practices used in conjunction with ATP joint venture awards, and our recent
                     survey of 49 ATP joint venture participants, we identified the potential for
                     inappropriate cost claims based on commercial prices. Based on this work,
                     we recently conducted interim financial audits of costs claimed under two
                     ATP joint venture cooperative agreements involving 19 participants. We
                     found that a significant number of joint venture participants claimed costs
                     based on commercial billing rates rather than actual costs, as required by
                     the terms of the ATP award.
                             We found that the questionable transactions generally involved
                     software development companies that provided licenses, software
                     maintenance and support, or other items from a commercial product line for
                     use on the project. Problems arose because federal cost reimbursement rules
                     do not permit financial assistance award recipients to be reimbursed for
                     previously invested (“sunk”) development costs, corporate interest
                     expenses, or profit—all of which are significant ingredients of software
                     commercial prices. We expect to issue reports to the individual recipients in
                     the very near future that will address these questioned costs, including those
                     involving the use of commercial prices in cost claims.
                              ATP program officials are now taking steps to educate future
                     applicants on the cost and accounting requirements for federal financial
                     assistance awards, specifically pointing out that commercial market prices
                     are not appropriate bases for cost claims. However, accounting problems
                     with existing recipients still need to be resolved. Although not every joint
                     venture project will have questioned costs of the same magnitude as those
                     found in the initial audits, there is a strong possibility that excessive federal
                     payments have already been made as a result of commercial-price-based
                     cost claims. We plan to conduct audits of all joint venture participants with
                     the potential for similar claims.

                     Incremental Funding
                             We are currently reviewing NIST’s use of incremental funding for
                     ATP projects. In August 1994, NIST received departmental approval to
                     designate ATP as a multi-year financial assistance program. Departmental
                     financial assistance programs with multi-year program designation are
                     allowed to make awards for periods of more than one year, even if the
                     program does not then have enough money to fund the entire award period.
                     NIST also received approval to renew award agreements for up to four
                     additional years rather than the normal two.



                                      -6-
                                                                            Message for the Congress




         Our examination of FY 1995 ATP grant files found that NIST had
not complied with the departmental requirement that a determination be made
for each award that the project activities for the awards could be divided into
annual increments, each of which represented discrete accomplishments. We
are recommending that NIST fully fund all awards for the prospective award
year for which this determination cannot be made. We will also recommend
that for all remaining awards, which are severable and have defined work
products each year, the required grants officer’s certifications of severability
be prepared each year.
         In addition, we have concluded that the unfunded balances of ATP
projects are similar to contingent liabilities and, as such, should be disclosed
in the overview and notes to NIST’s annual financial statements. The ATP
unfunded balance was determined to be about $155 million as of September
30, 1996.

NOAA Satellite Programs
         NOAA manages two weather satellite programs: Polar-orbiting
Operational Environmental Satellites (POES) and Geostationary Operational
Environmental Satellites (GOES). NOAA determines the general requirements
for new satellites and operates them once they are in orbit. The National
Aeronautics and Space Administration (NASA) is responsible for the
acquisition and launch of the satellites.

POES Program
         In our last semiannual report, we previewed the findings of our review
of the POES program (see September 1996 issue, page 5). In our final report
(see page 41), we identified $101.3 million in funds to be put to better use as a
result of excess funding. For FY 1994-96, NOAA received more funding than
it needed for new polar satellites because it failed to adequately reduce its
budget requests to reflect slowed spending in the program. By forwarding the
excess funds it received to NASA, which then obligated them to its various
polar satellite contracts, NOAA was able to avoid having to report the unspent
funds as unobligated carryovers. These actions enabled it to escape the
scrutiny such funds normally receive from the Department, OMB, and the
Congress. Included in excess funding was $28.1 million totally unrelated to
the NASA satellite acquisition that NOAA transferred to NASA because it
was unable to immediately use the funds.
       In response to our findings and recommendations, the Department
took immediate steps to eliminate the excess funding and strengthen
management controls by (1) assigning a full-time analyst to work directly with
NASA staff to obtain better funding information, (2) reporting


                                                          -7-
Message for the Congress




                     unobligated carryover funds and making plans to provide decision-makers
                     with better program performance and spending information, and (3)
                     agreeing to eliminate transfers to NASA that are not needed for forward
                     funding and monitoring fund transfers to ensure that funding is being used
                     for its intended purpose.

                               We have also found indications of excess funding in some of
                     NOAA’s other satellite budget accounts. A separate report will be issued on
                     our findings on completion of our review. We are continuing to work with
                     the Department and NOAA to strengthen management controls for the
                     satellite accounts.
                              The current series of NOAA polar satellites will be the last. We will
                     also be involved in reviewing the replacement program, which is in the early
                     stages of development by an integrated Department of Defense, NOAA, and
                     NASA team. This program is expected to save $1.3 billion by consolidating
                     the number of U.S.-owned operational satellites from four to two while
                     increasing the operational life span of each satellite. Our work in this area is
                     not new. In the early 1990s, we recommended that OMB initiate a
                     governmentwide study to help identify opportunities for consolidating
                     environmental satellite programs and avoiding unnecessary duplication. We
                     were pleased to see the convergence concept endorsed in the National
                     Performance Review and adopted as a Presidential Initiative in 1994.

                     GOES Satellite Acquisition
                               In our recent inspection of the GOES program (see page 42), we
                     strongly disagreed with NOAA’s plans for acquiring satellites to follow the
                     GOES-Next series. Because of NOAA’s delay in agreeing to a competitive
                     fixed price procurement and the reliability problems with GOES-8 and 9,
                     additional measures are needed to ensure against a coverage gap projected
                     for early next decade. Accordingly, NOAA is also purchasing an additional
                     satellite from the current GOES-Next contractor. The satellite will be built
                     and bought in stages, contingent upon the health of GOES-8 and 9 and the
                     remaining GOES-Next satellites. While the need to purchase this satellite is
                     inescapable at this point, we believe that it might have been avoided had
                     NOAA management been willing to pursue a suitable procurement approach
                     sooner.
                             NOAA planned to launch GOES-K in April 1997, two years earlier
                     than previously scheduled, and to store it in space as a backup to ensure
                     continuity of coverage now that GOES-8 and 9 are experiencing reliability
                     problems. While early launch is a reasonable contingency for ensuring



                                      -8-
                                                                        Message for the Congress




continuity of coverage in this instance, NOAA has not demonstrated that
launching a backup satellite for storage in space is a cost-effective policy
for ensuring continuity in the future. Although NOAA cites numerous cost
advantages to storing in orbit, we believe that the agency should develop a
plan for replacing failing GOES satellites in advance of an emergency based
on a more complete analysis of costs, benefits, risks, and backup
alternatives. However, NOAA disagrees with this recommendation and
instead plans to handle emergencies on a case-by-case basis, as it did with
the GOES-K launch.

NWS Modernization
        We continue to monitor the National Weather Service’s $4.5 billion
program to modernize its observing and information systems and to reduce
more than 250 field offices to 119. Our work during this period has focused
on the Automated Surface Observing System (ASOS) and the Advanced
Weather Interactive Processing System (AWIPS).

ASOS
         Although NOAA expected the contract for ASOS to be completed
this year, work will continue into next fiscal year, requiring a contract
extension. The extension is needed, in part, to complete ASOS deployment
and to modify and evaluate sensors, which have had continuing problems
with accuracy and reliability. Initially, ASOS was intended to monitor a
specific domain of meteorological conditions without the intervention of
human observers. However, observers continue to be needed at some
locations to augment ASOS due to numerous sensor malfunctions, and to
monitor meteorological conditions that ASOS was not designed to observe
(see page 50).

AWIPS
         We have conducted three inspections of AWIPS since 1991. Each
identified serious management, contract, and technical problems and
provided recommendations to correct them (see March 1996 issue, page 46;
September 1994 issue, page 40; September 1992 issue, page 2). However,
NOAA has not effectively addressed the problems, and costs have continued
to increase and schedules to lengthen. Our fourth inspection will assess the
feasibility of NOAA’s plans for completing AWIPS.
        As we reported in our last issue, NOAA has decided to abandon
substantial portions of the AWIPS software and use software developed by
NOAA’s Forecast Systems Laboratory (FSL), called WFO-Advanced,



                                                       -9-
Message for the Congress




                     as the basis for continued AWIPS development. The decision to use WFO-
                     Advanced was a dramatic change in direction, raising many questions
                     regarding how further development would proceed, which AWIPS
                     components would be retained, how they would be integrated with WFO-
                     Advanced, and how the resultant system would perform. Due to these
                     unanswered questions, the Secretary has delayed Key Decision Point IV, the
                     milestone that would allow nationwide AWIPS deployment, to December
                     1997. Meanwhile, the Secretary has authorized NOAA to procure and
                     deploy 21 systems, with an option for 18 more contingent upon adequate
                     development and deployment progress.

                              Because of its superior capabilities and performance, WFO-
                     Advanced is crucial for making progress on AWIPS. However, a number of
                     serious issues and decisions remain. In particular, use of WFO-Advanced
                     requires transferring most design responsibilities from the contractor to the
                     government; determining the respective technical responsibilities of NWS,
                     FSL, and the AWIPS contractor; carefully planning the work needed to
                     complete AWIPS development; and revising the contract. Although more
                     than six months have passed since the decision to use WFO-Advanced, this
                     planning is far from complete and, according to NOAA, may not be finished
                     until the summer. NOAA lacks a detailed definition of the work and has not
                     identified organizational roles and responsibilities. Nevertheless, it has
                     recently established a $550 million estimate for AWIPS development and
                     deployment, an increase of $25 million since last year. This cost estimate, in
                     our opinion, has significant uncertainties due to the lack of detailed planning
                     to define remaining development activities and responsibilities.
                            Because AWIPS is essential to achieving NWS operational
                     improvements and cost savings, it is imperative that NOAA develop and
                     implement the necessary technical and management plans to efficiently
                     complete this program.

                     Facilities Planning and Laboratory Consolidation
                     NIST Construction at Gaithersburg
                              In January 1997, we issued a final inspection report on NIST’s
                     management of its Capital Improvements Facilities Program (CIFP). The
                     report (1) recognizes CIFP’s complexities and the difficulties NIST officials
                     have dealt with in handling certain aspects of the program, (2) highlights
                     concerns and issues that require NIST management’s attention, and (3)
                     recommends actions to be taken to ensure efficient and effective program
                     implementation (see page 61).


                                      - 10 -
                                                                         Message for the Congress




         We recommended that NIST revise the CIFP to accurately reflect
the current thinking on its facilities improvement needs. However, the most
recent plan still contains at least $212.7 million in unjustified or
inadequately explained program elements. NIST needs to remove all
unjustified elements from its revised plan and expend no funds on those
elements. The unjustified elements included, at a minimum, the Boulder
Advanced Measurement Laboratory (AML), renovation of the existing
Chemistry Building, and the unspecified and undocumented increases in
estimated renovation costs in Gaithersburg.
         We also found that the acquisition plan for a large omnibus task
order construction contract was ill-conceived. The acquisition plan allowed
for the sole-source award of an indefinite delivery, indefinite quantity cost-
type task order contract for the construction of facilities worth up to $480
million, to be constructed over a 10-year period. NIST recently canceled this
proposed contract due to a lack of funding, but plans to use a similar
omnibus task order contract for future construction tasks. We maintain that
any such proposed contract should be awarded to multiple suppliers to
ensure that more than one supplier is certified and available to meet NIST’s
construction requirements. In this manner, competition also will be assured
for successive task orders under the omnibus contract.
         In addition, we found that NIST was planning to build the
Gaithersburg AML in separate phases—instead of in a more efficient, cost-
effective “unified” manner—because agency officials believe that the
necessary up-front funding for unified construction simply will not be
available. NIST may well be right. Unfortunately, phased construction
seriously reduces efficiencies and creates other cost disadvantages. We
endorse NIST’s continuing efforts to work with the Department, OMB, and
the Congress to find a funding strategy that will allow the AML to be built
under a unified contract.

NIST Leased Space
         We previously reported on NIST’s procurement of leased office
space in Gaithersburg that was intended primarily to provide “swing space”
while other space is being renovated (see September 1996 issue, page 56).
We concluded that the agency had unnecessarily committed itself to a 10- to
15-year lease that may cost from $31 million to $47 million and that it
should vacate and sublet the majority of the building immediately. In
response to our report, NIST and the Department stated that the space was
needed to relieve office overcrowding on its main campus. While we agreed
that NIST has a minor office overcrowding problem, we believe it can
justify only about a third of the currently leased space and that other



                                                        - 11 -
Message for the Congress




                     NIST buildings will be available for swing space when renovations take
                     place. The Department disagreed with our finding and hired a contractor to
                     study the overcrowding issue. The Department concluded, based on the
                     results of the contractor’s study, that there was little available space on the
                     NIST campus for personnel to backfill if the leased building was vacated
                     and sublet, and that it would not be cost-effective to move employees back
                     to the main campus until more space is available there.

                              We disagree with the Department’s conclusions and with the
                     structure and findings of the contractor’s study. We do not believe that the
                     study answered the questions needed to properly resolve this issue, including
                     the issue of office space needs of researchers versus those of more
                     traditional office workers elsewhere in the Department. We have agreed that
                     final resolution of the lease issue will be deferred until NIST has completed
                     its reassessment of its overall facility needs. We will closely monitor NIST’s
                     future facility plans to ensure that the agency selects the most cost-effective
                     alternatives and includes a definitive and justifiable plan for liquidating the
                     excess leased space (see page 63).

                     Proposed NOAA Operations and Research Center
                             NOAA has requested FY 1998 funding to begin planning for the
                     design and construction of a $97 million research center to be located at the
                     NASA Goddard Space Flight Center in Greenbelt, Maryland. The proposed
                     new 350,000-square-foot facility would house 1,200 NOAA employees
                     involved in satellite and weather services.
                              NOAA originally planned to lease the facility, while a third party
                     was to provide financing for the project. However, we recently learned that
                     NOAA was seeking authority and funding to begin the project as early as
                     FY 1998. We have begun an audit to determine whether NOAA has
                     adequately justified its revised decision. Our preliminary work has identified
                     concerns with NOAA’s economic analysis. The NOAA analysis does not
                     appear to have evaluated all possible alternatives, including renovating
                     existing facilities or leasing other federal government or privately owned
                     properties.

                     NTIS Expansionary Activities
                              We recently completed a program evaluation of the National
                     Technical Information Service’s operations, including its CyberFile project
                     for the Internal Revenue Service (IRS). We found that in pursuing its
                     mandated responsibilities, NTIS has generally worked effectively with other
                     federal agencies to increase its inventory of the nation’s scientific,
                                      - 12 -
                                                                          Message for the Congress




technical, and engineering information, in compliance with the American
Technology Preeminence Act (ATPA).

         However, we are very concerned about the expansionary efforts and
activities taken on by NTIS, based on (1) its interpretation of the agency’s
authority under ATPA, (2) a push to generate new revenues, and (3) a
general desire to expand its operations. We are concerned that some of these
tasks are on the border of—if not outside—NTIS’s authority and statutory
mission. Also, poorly chosen expansionary projects potentially detract from
NTIS’s ability to fulfill its primary and traditional mission.

         A prime example is NTIS’s attempt to develop for IRS a system
capability that would enable U.S. taxpayers with home computers to submit
their tax returns electronically. Unfortunately, CyberFile—a $22 million
project, NTIS’s largest ever—was poorly managed on many fronts, and
NTIS’s role in the project became the subject of GAO, OIG, IRS internal
audit, and congressional concerns and criticism.
        The CyberFile problems appear, in large part, to be the result of
(1) NTIS agreeing to an overly ambitious schedule to have the filing system
up and running on a pilot basis for the 1996 tax season, (2) numerous
documented and undocumented performance requirement changes by IRS,
(3) poor planning by both IRS and NTIS, (4) a lack of timely decision-
making by IRS, (5) poor management and inadequate oversight by both IRS
and NTIS, and (6) improper procurement practices, oversight, and direction
by NTIS and Commerce Department personnel. We recently issued three
inspection reports dealing with general NTIS management issues and with
procurement and management issues specific to the CyberFile project (see
pages 58 and 59 and September 1996 issue, page 64).

Seafood Inspection
Performance Based Organization
         At the request of the Assistant Administrator for Fisheries, we are
evaluating the plans and strategies for converting the National Marine
Fisheries Service’s Inspection Services Division to a PBO. Our evaluation
indicates that NMFS has not fully considered alternatives to establishing a
PBO, particularly the possibility of incorporating the proposed PBO func-
tions into the Food and Drug Administration, which has similar inspection
duties and has recently been tasked with broadening its inspection services.




                                                        - 13 -
Message for the Congress




                            At the time of our review, a business plan for the proposed PBO had
                    not been developed. Moreover, NOAA’s draft prospectus was inadequate
                    because it did not (1) assess the market for inspection services, (2) evaluate
                    the competition, including market share and price structures, or (3) adequately
                    describe the organization and management structure and required staffing of
                    the proposed PBO. NOAA needs to develop a comprehensive business plan to
                    demonstrate that the PBO can compete in an open market and that revenues
                    will cover costs. Until these actions have been completed, NOAA should not
                    proceed with plans to convert the Inspection Services Division to a PBO (see
                    page 50).
                                                 *****************

                            FEDERAL MANAGERS’ FINANCIAL
                                   INTEGRITY ACT

                            The Federal Managers’ Financial Integrity Act of 1982 (P.L. 97-255)
                    requires the heads of executive agencies to report annually to the President and
                    the Congress on the adequacy of their accounting and management control
                    systems. The annual report identifies material weaknesses and actions being
                    taken to correct them.
                              The National Performance Review recommendations called for more
                    proactive management of federal programs and encouraged federal managers
                    to consider the findings and recommendations cited in OMB, General
                    Accounting Office, and other management reports in determining the
                    conditions of administrative and accounting control systems, in accordance
                    with revised OMB Circular A-123. This results in a more streamlined process
                    that is less burdensome to managers.
                             The staffs of the OIG and the Department’s CFO work together to
                    assist bureaus in identifying their material weaknesses. The Secretary reported
                    four material weaknesses this year, as listed below. The first three were
                    reported in prior years, and the fourth is new this year.
                    ! Modernization of the Weather Service (NOAA).
                    ! Fleet Modernization (NOAA).
                    ! Financial Systems (Departmentwide).
                    ! Better Management of the Design and Implementation of the 2000
                      Decennial Census (Census).
                            One previously reported condition—Management of Census Major
                    Systems (Census)—was closed during this reporting period, as adequate
                    progress had been made in implementing corrective actions.

                                       - 14 -
                                                                         Message for the Congress




         RESOLUTION AND FOLLOW-UP

        The Inspector General Act Amendments of 1988 require this report
to present those audits issued before the beginning of the reporting period
(October 1, 1996) for which no management decision has been made by the
end of the period (March 31, 1997). The following table presents the overall
status.



 Type of Audit Report                                           Unresolved

 Performance                                                        3

 Financial Assistance                                               1

 Financial Statements                                               1

 Preaward Contract                                                  2

 Postaward Contract                                                 0


         The three unresolved performance audits involve NOAA programs.
The first audit offered recommendations for streamlining NWS’s head-
quarters and support operations. In mid-April, the OIG concurred with
NWS’s updated audit action plan and the report was recorded as resolved.
The second audit recommended that tsunami warning programs be
consolidated and the warning centers be eliminated. NOAA does not agree
with the recommendations in this report. The third audit recommended that
NOAA improve the Office of Oceanic and Atmospheric Research’s
recovery of costs for sponsored research. NOAA is preparing a revised
audit action plan. Details are presented on page 51.
        The one unresolved financial assistance audit involves a NOAA
award. The audit remains unresolved for over a year. Resolution is pending
action by Defense Contract Audit Agency and the Office of Naval Research,
the cognizant audit agency. Additional details are presented on page 52.
        The unresolved financial statements audit involves the General
Administration’s Salaries and Expenses Fund Statement of Financial
Position as of September 30, 1995. We are currently reviewing the
Department’s audit action plan. Details are on page 80.
       Discussion of the two unresolved preaward contract audits can be
found on page 85.



                                                       - 15 -
Message for the Congress




                             Department Administrative Order 213-5, “Audit Resolution and
                     Follow-up,” provides procedures for agency management to request a
                     modification to an approved audit action plan, or for a financial assistance
                     recipient to appeal an Audit Resolution Determination letter. The following
                     table summarizes the activity during the reporting period.

                      Report Category                             Modifications       Appeals

                      Actions pending (October 1, 1996)                  0               10

                      Submissions                                        0                1

                      Decisions                                          0                3

                      Actions pending (March 31, 1997)                   0                8


                             The eight appeals pending final decisions by the Department include
                     one NTIA, four EDA, and three MBDA financial assistance audits. Five of
                     these appeals (two EDA and three MBDA) have been in process for over a
                     year, and three for as long as two years.




                                      - 16 -
                                                                                                Message for the Congress




                              Audit and Inspection
                              Statistical Highlights
Questioned costs this period . . . . . . . . . . . . . . . . . . . . . . $4,787,979
Value of audit recommendations this
period that funds be put to better use . . . . . . . . . . . . . . $139,974,428
Value of audit recommendations agreed
to this period by management . . . . . . . . . . . . . . . . . . . . $70,696,249
Value of inspection recommendations this
period that funds be put to better use . . . . . . . . . . . . . . $101,300,000




                                 Investigative                                                                       Allegations
                                                                                                                    Processed by
                             Statistical Highlights                                                               OIG Investigators

Indictments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0                            25 Accepted for
                                                                                                                                  Investigation
Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0                            44 Referred to
                                                                                                                                  Operating Units
Personnel actions1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17                                32 Evaluated But
                                                                                                                                  Not Accepted for
Administrative actions2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9                                     Investigation or
                                                                                                                                  Referral
Fines, restitutions, judgments, and civil and
                                                                                                                              101 Total
administrative recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . $242,090
1
 Includes suspensions, reprimands, demotions, removals, reassignments, and resignations               In addition, numerous other allegations and
                                                                                                      complaints were forwarded to the appropriate
or retirements in lieu of adverse action.                                                             federal and nonfederal investigative agencies.
2
 Includes actions to recover funds, new procedures, and policy changes that result from
investigations.                                                                                                        OIG HOTLINE

                                                                                                      Telephone: (202) 482-2495 or 1-800-424-5197
                                                                                                      Commerce E-mail: OIG Hotline@OI@OIG
                                                                                                      Internet: oighotline@doc.gov




                                                                         - 17 -
                                                Bureau of
                                                Export Administration

   The Bureau of Export               Audit of BXA’s FY 1996 Financial Statements
Administration is primarily
responsible for the administration             The OIG contracted with a certified public accounting (CPA) firm
and enforcement of the nation’s       to audit BXA’s FY 1996 and 1995 statement of financial position and the
system for controlling exports of     related statement of operations and changes in net position for the year
sensitive dual-use goods and          ended September 30, 1996. However, due to excessive delays in obtaining
technologies. Under the Export        documentation and the problems identified, we determined that it was not
Administration Act and                prudent to complete the FY 1995 audit test work. The firm disclaimed an
regulations, BXA’s major
                                      opinion on the FY 1995 statements because (1) BXA was unable to provide
functions include formulating and
implementing export control           support for the FY 1995 payroll sample, (2) BXA did not provide a timely
policy; processing export license     property and equipment detail listing for FY 1996, and (3) most of the
applications; conducting various      findings in our FY 1994 Audit Survey of BXA’s financial statements had
policy, technical, and economic       not been corrected as of September 30, 1995.
analyses; promulgating
                                               The firm also disclaimed an opinion on the FY 1996 financial
regulations; conducting industry
outreach; and enforcing the act       statements because (1) it could not obtain a complete list of pending or
and regulations.                      threatened litigation, claims, and assessments from the Office of General
      Export Administration           Counsel; (2) there was inadequate supporting documentation; (3) policies
implements U.S. export control        and procedures were not properly followed; (4) the FY 1995 account
and nonproliferation laws and         balances were unaudited; and (5) the financial information disclosures were
policies through export licensing,    not fully identified and analyzed.
commodity classifications, and
advisory opinions; technical,                 The firm’s review of BXA’s internal control structure identified 10
economic, foreign availability, and   reportable conditions, of which the first eight are material weaknesses:
policy analyses; promulgation of      ! Management lacks oversight for financial accounting and reporting.
regulations; and industry
outreach. It also conducts various    ! Automated data processing weaknesses in subsystems could result in
defense industrial base activities.     misstatement.
      Export Enforcement
participates in reviews of export
                                      ! Certain balances recorded on the financial statements are not supported.
license applications and conducts     ! Routine property and equipment transactions were not processed
criminal and administrative             accurately, reconciled, or supported, causing misstatements in net
investigations of the export            property and equipment.
control portions of the Export
Administration Act and                ! Capital and operating leases are not consistently recorded, captured, or
regulations. It also administers        properly disclosed.
and enforces the antiboycott
provisions of the act and             ! Civil monetary penalties are not valued properly and not collected timely.
regulations.
                                      ! Accounts payable and undelivered orders are not properly
                                        recorded/liquidated and supported.
                                      ! Accounts receivable are not supported.




                                                       - 18 -
                                                                 Bureau of Export Administration




! Payroll records are not adequately maintained or reconciled.
! The overview section of the financial statements is incomplete and not                 Bureau of Export
                                                                                          Administration
  supported.
        BXA concurred with virtually all of the audit findings and
recommendations. The nature and extent of the reported deficiencies indicate
serious problems in the internal control structure. We encouraged BXA              Export
                                                                                Administration
                                                                                                        Export
                                                                                                      Enforcement
management to make concerted efforts to improve the structure soon enough
to allow for the preparation of more reliable financial statements for FY
1997.
         BXA needs to continue to heighten the awareness and importance of
financial management and fiscal responsibility among its staff. By allocating
certain additional resources, implementing certain changes in policy, and
improving management oversight for financial accounting and reporting,
many of these issues can be resolved. However, certain items can be
resolved only by significantly modifying or replacing the system. BXA must
continue to support the successful implementation of the Commerce
Administrative Management System and modifications to existing
subsystems. (Financial Statements Contract Audit Division: FSC-8834-7-
0001)

Commerce Role in Defense Priorities and
Allocation System Needs Strengthening
         The Commerce Department, through BXA, is responsible for
administering the Defense Priorities and Allocation System (DPAS), as
provided for in the Defense Production Act of 1950. Under the act, the
President can require the priority performance of government contracts and
purchase orders as necessary to meet approved national defense and
emergency preparedness program requirements and to allocate materials,
services, and facilities needed to promote these programs. Commerce’s
involvement in DPAS was designed to ensure timely delivery of materials
and equipment and to minimize interference with commercial activity.
        The OIG conducted a review to evaluate BXA’s role in
administering DPAS and to determine the system’s effectiveness and
relevance in the post-Cold War era. As required by executive order,
Commerce has re-delegated to the Secretary of Defense and heads of other
involved departments and agencies much of the day-to-day administrative
responsibility for DPAS, authorizing them to apply priority ratings to
contracts and orders that support approved national defense and emergency
preparedness activities.



                                                       - 19 -
Bureau of Export Administration



                                Our review found that DPAS continues to be an important
                       component of our national security in the post-Cold War era, and that
                       Commerce, when necessary, works to expedite orders and respond to
                       requests for special priorities assistance. The review also disclosed several
                       instances in which Commerce’s intervention precluded unjustified use of
                       DPAS authority, suggesting that the Department’s role is still valid. We did,
                       however, identify a number of areas that warrant BXA’s management
                       attention:
                       ! Instead of supporting only the most essential programs for our nation’s
                         defense, DPAS priority ratings have become a routine component of
                         military procurement.
                       ! Because neither Commerce nor Defense knows how many rated contracts
                         or DPAS actions there are annually, it is difficult to gauge the impact of
                         the ratings on U.S. companies.
                       ! Commerce has not maintained adequate coordination with Defense to
                         ensure that DPAS authority is used properly.
                       ! Standard procurement practices are occasionally circumvented to
                         expedite DPAS requests.
                       ! DPAS regulations are outdated and in need of revision.
                       ! Commerce has not provided sufficient resources and oversight to
                         maintain management controls for ensuring that DPAS works efficiently
                         and effectively.
                                We made a number of recommendations to address these problems.
                       BXA generally agreed with our observations and recommendations. The
                       actions it has taken or planned, when implemented, will satisfy the intent of
                       our recommendations. (Office of Inspections and Program Evaluations:
                       IPE-8716)




                                        - 20 -
                            Economic Development
                                    Administration

Audit of EDA’s FY 1996 Financial Statements
                                                                                   The Economic Development
                                                                                Administration was established
         After auditing EDA’s FY 1996 statement of financial position, the      under the Public Works and
contractor CPA firm was unable to express an opinion because of                 Economic Development Act of
inadequacies in the bureau’s internal control structure. The firm identified    1965 to generate new jobs, help
the following four material weaknesses as principal reasons for disclaiming     protect existing jobs, and
an opinion:                                                                     stimulate commercial and
                                                                                industrial growth in economically
! The management control structure requires further improvement.                distressed areas of the United
! EDA needs to establish additional procedures to record accrued grant          States. EDA does this by
                                                                                providing grants to public and
  expenses accurately.
                                                                                private nonprofit organizations in
! Incompatible duties relating to computer program changes are not              communities with problems that
  adequately segregated.                                                        are stifling economic growth;
                                                                                planning grants to states, cities,
! Controls over logical security in the current fund accounting system are      districts, and Indian reservations;
  not properly designed.                                                        special economic adjustment
                                                                                assistance to states and local
         The firm also identified the following five reportable conditions in   governments with recent, severe
its review of EDA’s internal control structure: (1) all intra-entity activity   problems or long-term economic
needs to be properly identified and accounted for; (2) annual leave should be   deterioration; technical assistance
reconciled on a timely basis; (3) duties should be segregated at the            to communities to build
Administrative Support Center Finance Department in Kansas City                 organizational capacity and solve
(operated by NOAA); (4) expenses related to advances to grantees should be      specific economic development
recorded when incurred and in accordance with Department policies; and          problems; and research and
(5) expenses related to advances to other government agencies should be         evaluation grants to increase
recorded when incurred and on a timely basis.                                   knowledge about effective
                                                                                economic development tools.
         EDA agreed with the audit findings and stated that it would correct
its financial management deficiencies.
         Despite the current findings, it is clear that EDA has made
substantial progress in improving its financial management. Our earlier
audit of EDA’s FY 1995 statement of financial position identified 10
material weaknesses and 11 reportable conditions. The dramatic reduction
of identified deficiencies to four weaknesses and five conditions is a clear
indication of EDA’s commitment to improving financial management. EDA
accomplished this reduction by developing a responsive action plan and
placing additional senior management attention on improving accounting
records and internal controls. We commend EDA for the substantial
progress it has made in improving its financial management.
        Of particular importance in correcting the remaining deficiencies is
the bureau’s commitment to hiring a Chief Financial Officer, for which
EDA has recently posted a vacancy announcement, and strengthening its



                                                        - 21 -
Economic Development Administration



                                       financial management systems. Although the Commerce Administrative
            Economic                   Management System is expected to eventually address EDA’s financial
           Development
           Administration              management systems deficiencies, the agency must take prompt action to
                                       mitigate the identified systems deficiencies, assessing the costs and benefits
                                       of any interim solutions. (Financial Statements Contract Audit Division:
                                       FSC-8837-7-0001)
    Program                Program
   Operations            Research &
                          Evaluation
                                       California Subgrantee Poorly Managed
             Finance &
                                       EDA-Funded Project
            Administration


                                                The OIG performed an interim audit, covering the period of October
                                       1992 through February 1995, of an EDA grant awarded to a California
                                       county agency to address the effects of defense-related downsizing. The
                                       grant was divided into four components: a product development partnership,
                                       a high technology council, a seed capital loan fund, and a business loan
                                       program. The business loan program was retained by the county agency,
                                       while the other three components were assigned to a subgrantee, a private
                                       nonprofit corporation established by the county. The total project budget
                                       was about $7.4 million, consisting of the EDA award of over $5.5 million
                                       and a local matching share of nearly $1.9 million.
                                                We noted only minor problems with the grantee agency’s per-
                                       formance, but found serious deficiencies in the three components managed
                                       by the subgrantee corporation. Specifically, our audit disclosed that the
                                       corporation (1) failed to perform under the EDA grant, as it did not
                                       establish the high technology council and made only one loan from the seed
                                       capital loan fund; (2) spent grant funds for activities that did not contribute
                                       to grant targets and objectives, and could not account for the funds; (3) was
                                       unprepared to administer the subgrants, lacking the requisite organization,
                                       staffing, and management systems and controls; and (4) failed to comply
                                       with other administrative requirements, federal cost principles, and award
                                       terms and conditions.
                                                Among our recommendations was that EDA make a technical
                                       assessment of the corporation’s performance and, if it determines that the
                                       corporation earned part of the claimed performance, establish the value of
                                       the work accepted and adjust disbursements to the corporation accordingly.
                                       If, however, EDA sustains our findings of nonperformance, it should
                                       disallow over $1.3 million in costs claimed through February 1995 and
                                       recover over $800,000, plus the appropriate portion of federal
                                       disbursements made thereafter. And if the grant components are extended,
                                       strict controls should be placed on the corporation’s future performance
                                       reporting and cost claims. (Seattle Regional Office of Audits: STL-7625-7-
                                       0001)

                                                        - 22 -
                                                      Economic Development Administration



Public Works Grant Should Be
Terminated for Cause
         In 1991 EDA awarded an $867,520 public works grant to a
nonprofit development corporation in rural Pennsylvania. The corporation
was required to match the grant with $216,880 in cash, bringing the total
project funding to nearly $1.1 million. The purpose of the grant was to
develop an industrial park, which included constructing a water tank, water
and sewer lines, and an access road on undeveloped property. The project
was completed in 1993, and EDA disbursed $865,934 in grant funds.
         In 1995 over three-fourths of the property was sold to a mobile
home manufacturer as a site for a new plant. EDA learned of the sale
through a newspaper article, which indicated that the property had been sold
for a price well below fair market value and suggested the possibility of a
conflict of interest involving a corporation official. As a result, EDA
referred the project to the OIG for audit.
         Our audit disclosed that, in selling the property, the corporation had
materially violated the grant terms and conditions. Specifically, we found
that the corporation sold the property for about one-quarter of its fair
market value and, in violation of the grant agreement:
! Failed to notify EDA in advance of the sale and provide the required
  buyer’s covenant.
! Allowed the appearance of an improper conflict of interest to be created
  by the corporation's president/attorney, who helped negotiate the bargain
  sale, and then made a substantial personal investment in the company that
  bought the property.
          In addition, the corporation’s response to our draft report disclosed
that its grant application omitted material information regarding the useful-
ness of the property being developed, which also violates the grant award.
         Because of the seriousness of the violations, we recommended that
EDA terminate the grant for cause and recover the $865,934 in disbursed
federal funds. (Atlanta Regional Office of Audits: ATL-8435-7-0001)




                                                          - 23 -
Economic Development Administration



                     Over $1 Million in Costs Disallowed
                     on Public Works Grant
                              In September 1990, EDA awarded a $1.9 million public works
                     grant to a South Carolina city to assist in its economic recovery from the
                     devastation of Hurricane Hugo. The Federal Emergency Management
                     Agency provided another grant worth nearly $200,000, and the city matched
                     the EDA grant with land valued at $1.6 million, bringing the total project
                     funding to about $3.7 million. The EDA grant was to be used to help
                     redevelop the city’s fishing industry by constructing a commercial dock and
                     retail market facility for local fishermen. The grant agreement required the
                     project to be completed by October 1994; however, the city has not yet
                     finished it, although all grant funds have been disbursed.
                              An OIG audit disclosed that the city significantly expanded the scale
                     of the project to include recreational and tourism facilities, and
                     inappropriately claimed $1,847,000 for the non-EDA project costs, which
                     we questioned. Additional questioned costs of $309,000 resulted in total
                     questioned costs of $2,156,000, for which EDA reimbursed the city
                     $895,000 as the federal share. We also found that the city had failed to
                     obtain EDA approval before entering into a lease of grant-funded facilities.
                             We recommended that EDA require the city to:
                     !       Complete the EDA portion of the project. Until the project is
                             complete, EDA should establish an accounts receivable from the
                             city for $895,000, but allow the city to substitute eligible costs
                             incurred to complete the project.
                     !       Obtain EDA’s approval before leasing any grant-funded facilities.
                              Although the city did not concur with our findings, it agreed with
                     our recommendations. EDA agreed to implement our recommendations by
                     requiring the city to complete the project, establish an accounts receivable
                     against which to apply eligible project costs, and obtain EDA approval of
                     the lease agreement. EDA also proposed some reductions to the questioned
                     costs, primarily involving acceptance of (1) a parcel of land as in-kind
                     matching funds and (2) various architectural and engineering fees billed in
                     accordance with the contract or with EDA approval. After working with
                     EDA to resolve the questioned costs, we accepted its proposal to disallow
                     costs of over $1 million, of which the federal share is more than $570,000.
                     (Atlanta Regional Office of Audits: ATL-8588-7-0001)




                                      - 24 -
                                                     Economic Development Administration



Grant Should Be Terminated and $1.1 Million
Recovered for Matching Funds Violations
         In September 1994, a nonprofit corporation in Alabama was
awarded a $750,000 EDA grant to capitalize a revolving loan fund (RLF) to
provide financing to small and medium-size businesses throughout the state.
The corporation was required to contribute matching funds of $1,000,000,
which were to consist of Community Development Block Grant funds
committed by the state government. In November 1995, the state withdrew
its commitment to match the grant. Once EDA learned of this, it suspended
all new lending and asked the OIG to audit the RLF.
         Our audit disclosed that the corporation had been out of compliance
with the EDA grant agreement’s matching requirements since at least March
1986, six months after it began using EDA funds to make loans. Specific-
ally, the corporation violated the agreement by: (1) failing to assert control
over the $1,000,000 in state matching funds; (2) remitting to the state more
than $683,000 in interest earned on loans, which would have earned an
estimated $248,000 in additional interest had it been loaned or invested; and
(3) inaccurately reporting financial information to EDA, thereby concealing
the violations of matching requirements.
         In total, the RLF lost an estimated $1.9 million in principal and
interest because the corporation failed to control the matching funds.
         We recommended that EDA terminate the grant award for cause
and recover from the corporation more than $1.1 million, the agency’s fair
share of the RLF’s assets. Other than to acknowledge the state’s withdrawal
of its funding commitment, the corporation generally disagreed with our
findings. (Atlanta Regional Office of Audits: ATL-9265-7-0001)

Costs Claimed by Texas City
Questioned or Unsupported
          In 1992 a Texas city received a Title IX EDA grant to implement an
economic adjustment strategy to halt long-term economic deterioration. The
city was to use the funds for critically needed water system improvements to
enable it to comply with state requirements and attract new industries. The
total estimated project cost was $1,406,500, consisting of the $845,000
EDA grant and $561,500 from the city, to be funded by bonds and state
pass-through funds. An OIG audit was requested by EDA after receiving
complaints from vendors, even though sufficient disbursements had been
made to the city.




                                                         - 25 -
Economic Development Administration



                              The audit found that the city cannot support its project cost claims
                     because it commingled federal and state funds with local funds and used
                     some of the funds for ineligible or non-project-related purposes. As a result,
                     we questioned, or considered unsupported, over $760,000 in costs claimed
                     against the EDA grant, and nearly $600,000 in costs claimed against state
                     funds.
                              We also found that the city (1) misled the state in applications for
                     project funds, (2) made inappropriate and duplicative claims of project
                     costs, (3) entered into inappropriate and duplicative engineering agreements,
                     and (4) maintained inadequate accounting records. In addition, we
                     questioned the performance of professional consultants hired by the city to
                     manage the project.
                             We made a number of recommendations to remedy the identified
                     deficiencies. EDA agreed that the audit disclosed serious accounting
                     inadequacies. The city denied that it used EDA and state funds for
                     unallowable purposes, and claimed that it was correcting reported
                     deficiencies in its accounting and internal control systems. As some of our
                     findings were developed after the issuance of our draft report, we are
                     allowing the city additional time to comment on them. (Denver Regional
                     Office of Audits: DEN-7037-7-0001)

                     RLF Income Improperly Used
                     to Pay Administrative Costs
                              In 1994 EDA awarded a $500,000 grant to a Georgia county to
                     capitalize an RLF, requiring $180,000 in local matching funds. The RLF’s
                     purpose is to provide financing for business expansions and startups that
                     create jobs for low- to moderate-income people. In making seven RLF loans
                     totaling nearly $600,000 as of June 1996, the county collected $5,200 in
                     loan application and credit inquiry fees. Instead of depositing the income
                     into the RLF capital account, however, the county used the income to pay
                     administrative costs, thereby violating the terms and conditions of its RLF
                     award.
                              We recommended that the county be required to deposit the $5,200
                     in its RLF account and directed not to use RLF income to pay
                     administrative costs without EDA approval. County officials agreed with
                     our findings, but requested and obtained EDA approval of a grant
                     amendment to allow the county to use RLF fee income to offset
                     administrative costs. (Atlanta Regional Office of Audits: ATL-8881-7-
                     0001)




                                      - 26 -
                                                         Economic Development Administration



EDA Followed Proper Procedures in Determining
That $1.5 Million Loan Met Requirements of Law
          Several Members of Congress requested that the OIG look into
allegations that a $1.5 million EDA loan to a private company violated
section 702 of the Public Works and Economic Development Act of 1965,
as amended. Section 702 provides that no financial assistance shall be
extended to any project when the result would be to increase the production
of goods, materials, or commodities, or the availability of services or
facilities, when there is not sufficient demand to employ the efficient
capacity of competitive commercial or industrial enterprises. EDA’s criteria
for determining whether proposed projects comply with section 702 are set
forth in agency regulations.
         After reviewing relevant EDA files on the loan project, including the
EDA economist’s competitive impact study that formed the basis of the
agency’s section 702 compliance determination, we concluded that the
determination was made in accordance with the policies and procedures set
forth in the act and regulations. In conducting the study, the economist
reviewed the company’s business plan, contacted former customers, and
analyzed industry information from a variety of sources. Moreover, when
the company revised its plan before EDA had reached its final decision, the
economist incorporated the revised plan into his analysis. In our judgment,
EDA applied the appropriate criteria in determining the proposed loan’s
compliance with section 702. (Economic Development Division)



EDA Making Reasonable Efforts to Collect
Balances Due on Delinquent Loans
         The OIG conducted a limited review to assess EDA’s collection
efforts related to its business and public works loans. At the end of
FY 1996, EDA reported a total of 313 loans with outstanding balances of
about $115 million. We identified 29 delinquent loans, with balances
totaling over $17.2 million, of which we selected 9 for review. The reviewed
loans, which had outstanding balances of nearly $14.2 million, included one
public works loan and eight business loans.
         In a memorandum to EDA’s Acting CFO, we reported that the
agency was making reasonable efforts to collect the outstanding balances on
the selected loans. During our review, EDA settled one loan, brought
another to current status, and was negotiating the collectibility of the others.
We did not recommend any additional action. (Economic Development
Division)



                                                - 27 -
Economic Development Administration



                     $61 Million Revolving Fund Surplus
                     to Be Made Available for Better Use
                              In our September 1996 Semiannual Report (page 18), we reported
                     on an audit of EDA’s accruals for environmental cleanup costs and the
                     Revolving Fund’s capitalization level. As a result of the audit, EDA (1)
                     increased its environmental cleanup cost accruals by $22.15 million to
                     correct a previous understatement of its contingent liabilities, and (2)
                     agreed to inform the Congress, after finalizing a settlement agreement that
                     would resolve its potential environmental liability for a contaminated
                     steelworks property, that $61 million of funds reserved for the cleanup are
                     available for rescission or other authorized use.
                               On March 10, 1997, EDA announced an agreement to transfer the
                     interest in the steelworks property to a private company, which pledged to
                     fully investigate and clean up the hazardous chemical contamination on the
                     property. EDA will soon publish the settlement agreement in the Federal
                     Register for a 30-day public comment period, after which the transaction
                     will close. EDA will then notify the Congress of the availability of the funds.
                     (Economic Development Division)

                     New York State Provides Over $14 Million
                     to Replenish Revolving Loan Fund
                               In 1993 the OIG reported that the New York Job Development
                     Authority, a state agency serving as trustee of an EDA revolving loan fund,
                     had wasted or abused substantial amounts of the RLF’s capital (see
                     September 1993 issue, page 18). As a result, the RLF had been depleted by
                     at least $12 million and would lose about another $10 million over the
                     ensuing years if corrective actions were not taken. EDA generally concurred
                     with our findings and recommendations for the Authority to cease improper
                     activities and replenish the RLF.
                              The state was unable to develop an acceptable audit implementation
                     plan for several years. Finally, in 1996 the state legislature authorized the
                     Empire State Development Corporation, the Authority’s successor state
                     agency, to replenish the RLF with $13 million as a proposed settlement to
                     the audit findings. We reviewed the state’s proposal, conducted an on-site
                     review of the RLF’s current operations, and recommended certain
                     modifications to the proposal (see September 1996 issue, page 26).




                                      - 28 -
                                                       Economic Development Administration


         Based on these actions, in January 1997, Empire State agreed to
reimburse $13 million to the RLF in two annual installments of $6.5 million
each, and to contribute another $1.2 million in in-kind administrative costs
over the next 12 years. It also agreed to develop a new RLF plan, propose a
timetable for disbursing an additional $13 million in loans, submit timely
reports to EDA, and follow EDA administrative requirements. (Atlanta
Regional Office of Audits)

New Jersey City Finally Completes
$5 Million Public Works Project
         In 1991 the OIG reported that a New Jersey city had inappro-
priately changed the scope of an EDA public works water supply system
project. The project was funded in 1983 by a $2.5 million EDA Title I grant
that required the same amount in city matching funds. Our audit found that
the city had so reduced the project’s scope that the original purpose of the
grant could not be met (see September 1991 issue, page 13). The city
contended that the project was simply incomplete. We recommended that
EDA terminate the grant for cause, recover $1.75 million already disbursed,
and deobligate the remaining $750,000.
         In 1992 EDA deobligated the $750,000 and, as an alternative to our
other recommended actions, suspended the grant until December 31, 1996,
to allow the city to finish the project’s construction at its own expense. In
January 1997, the city provided documentation to EDA showing that it had
completed the required construction. (Atlanta Regional Office of Audits)




                                              - 29 -
                                                  Economics and
                                                  Statistics Administration

                                       Senator Seeks IG’s Views on Census’ Plans
   The Economics and Statistics
Administration analyzes                for Using Sampling in 2000 Decennial
economic developments, develops
policy options, and produces a                   Senator John Glenn, Ranking Minority Member of the Senate
major share of U.S. government         Governmental Affairs Committee, requested that the Inspector General
economic and demographic               provide his views on the Census Bureau’s plans for incorporating the use of
statistics. The Chief Economist        statistical sampling techniques into the 2000 decennial census and,
monitors and analyzes economic         particularly, whether the use of sampling would yield a more accurate result.
developments and directs studies
                                       He also asked the IG to comment on the accuracy, cost, and operational
that have a bearing on the
formulation of economic policy.
                                       implications of conducting the 2000 decennial census without sampling.
ESA has two principal operating                  In his response to Senator Glenn’s questions, the IG stated his belief
agencies:                              that, if carefully planned and implemented, sampling can be used in the
   Bureau of the Census. Census        2000 census to produce an overall more accurate result than was produced
is a general-purpose statistical       in 1990, and certainly a more accurate result than if methods used in the
agency that collects, tabulates, and
                                       1990 census were repeated in 2000. The 2000 decennial census design
publishes a wide variety of
                                       incorporates applications of statistical sampling to (1) complete the count of
statistical data about the people
and the economy of the nation.         nonrespondents and (2) determine, through a 750,000-household
                                       independent survey, who was missed or counted more than once. The first
   Bureau of Economic Analysis.
BEA’s goal is to provide a clear       application is intended to streamline census operations to save time and
picture of the U.S. economy by         resources for conducting the second. The results of these two samples will
preparing, developing, and             be combined with census information received by mail or telephone inter-
interpreting the national income       views to produce a “one number census.”
and product accounts—
summarized by the gross domestic
                                                The IG noted that the most serious decennial census problem is the
product—and other accounts and         disproportionate undercount of racial and ethnic minorities, and that the
measures of economic activity.         bureau’s planned survey of 750,000 households is the only proven method
                                       of measuring and correcting this problem. He added, however, that because
                                       of changing, missing, or incomplete sampling design details, he could not
                                       render an opinion on the efficacy of the bureau’s specific design. He noted
                                       that the bureau’s lack of satisfactory progress on the sampling design was
                                       indicative of a broader need to improve overall decennial census
                                       management.
                                                The IG stated that, if the 2000 census does not use sampling, its
                                       cost and operational complexity would increase, primarily because of a
                                       larger nonrespondent workload requiring additional time and funding, and its
                                       accuracy would decrease, because, as noted earlier, the planned independent
                                       survey is the only proven method for correcting the disproportionate under-
                                       count of racial and ethnic minorities.




                                                         - 30 -
                                                   Economics and Statistics Administration




Audit of Census’ FY 1996
Combined Financial Statements                                                              Economics &
                                                                                             Statistics
                                                                                           Administration

         The contractor CPA firm that conducted an audit of the Bureau of
the Census’ combined financial statements as of September 30, 1996,
expressed a qualified opinion on the combined statement of financial             Bureau                     Bureau of
                                                                                  of the                    Economic
position and disclaimed an opinion on the combined statement of operations       Census                      Analysis
and changes in net position for the year ended September 30, 1996. The firm
questioned the amounts recorded for accounts receivable, deferred revenue,
and net position because: (1) Census has insufficient procedures to ensure
that labor-related costs are properly charged to appropriate projects or
appropriations, and (2) inadequacies in Census’ process to allocate costs of
the Interfund, Census’ indirect cost rate system, including its policy of not
allocating losses to reimbursable projects, may lead to charges that are not
consistent with Department of Commerce accounting guidance.
         The firm’s review of internal controls identified a material weakness
related to the inadequacies in allocations of Interfund costs, discussed under
(2) above. In addition, it identified the following reportable conditions:
!       Reconciliations between Census’ financial information system and
        its subsidiary records were not performed properly.
!       Census does not have policies and procedures to determine the
        actual cost of items held in inventory for sale to other government
        agencies and to the public.
!       Liabilities for accounts payable remained on Census’ financial
        records after the related invoices were paid or after the accrual
        amount should have been removed or reduced.
        The firm made recommendations to address these conditions.
Census concurred with the firm’s findings and recommendations and
expressed a clear commitment to develop and implement corrective actions.
Financial statement audits are a key gauge for measuring the progress of a
bureau in meeting the goals and objectives of the CFO Act. While progress
has been made over the years, the report on internal controls shows that
additional improvements are needed.
         We have reported inadequacies in the Interfund for several years.
Census is taking immediate actions to significantly revise and improve the
internal allocation of indirect costs processed in the accounting system. It
has initiated a new allocation system that will significantly change the




                                                        - 31 -
Economics and Statistics Administration




                       Bureau’s costing and pricing policy. We recognize Census’ determination to
                       improve the internal control structure and encourage its continued efforts.
                       (Financial Statements Contract Audit Division: FSC-8836-7-0001)


                       Audit of BEA’s and ESA’s Combined Financial
                       Statements as of September 30, 1996
                                The OIG performed an audit of the Bureau of Economic Analysis’
                       and Economic and Statistics Administration’s combined financial statements
                       for the year ending September 30, 1996, under the requirements of the CFO
                       Act, as expanded by GMRA. This was the third audit of BEA’s and ESA’s
                       financial statements, but the first time the statements of the two bureaus
                       have been combined for reporting purposes. Our audit included work at
                       NIST’s Financial Services Group, which is responsible for BEA and ESA
                       accounting functions.
                                Although unqualified opinions were rendered, our review of BEA’s
                       and ESA’s internal control structure disclosed one material weakness and
                       three reportable conditions. The material weakness related to the need for
                       NIST to develop written procedures for its year-end closing process and
                       provide adequate training to staff on the process. The reportable conditions,
                       listed below, related to BEA’s and ESA’s operations.
                       !       Systems should be integrated and reconciliations between subsidiary
                               ledgers and the general ledger should be improved.
                       !       Procedures for proper cut-off and classification of all transactions
                               should be strengthened.
                       !       Procedures for a cost accounting system to account for ESA’s
                               salable inventory should be improved.
                                The results of this audit reflect the progress that BEA and ESA are
                       making in meeting the financial management objectives of the CFO Act. We
                       commend the agencies’ accomplishments and encourage ongoing efforts
                       with NIST to strengthen internal controls and continually improve the
                       quality, usefulness, and timeliness of annual financial and performance
                       reporting. (Financial Statements Audit Division: FSD-8874-7-0001)




                                        - 32 -
                                                   Economics and Statistics Administration




Government Receives $212,000 in Pre-Litigation
Settlement of False Claims Act Suit
        When an OIG audit of a contract for an advertising campaign in
support of the 1990 decennial census revealed possible overcharging by a
subcontractor, we opened an investigation and uncovered evidence that the
subcontractor had submitted more than $160,000 in fraudulent billings for
payment by the government. Although the terms of its subcontract provided
for payment of out-of-pocket costs only, we found that the subcontractor
had routinely charged commission fees or percentage mark-ups on goods
and services obtained from suppliers, and had provided altered vendor
invoices to support its claims.
         The matter was referred to the U.S. Attorney’s Office for the
District of Puerto Rico, which notified the contractor and subcontractor of
the government’s findings and the parties’ potential liability for damages
under the False Claims Act. Both the contractor and subcontractor denied
any wrongdoing, but agreed to a pre-litigation settlement under which the
government was paid more than $212,000. Working in conjunction with the
contracting officer and the contractor, we were also able to negotiate a final
resolution of costs questioned in the audit. (Atlanta Regional Office of
Audits and Office of Investigations)

Census Employee Suspended
for Conflict of Interest
         A supervisory computer specialist was suspended for 90 days after
an OIG investigation disclosed that he had continued to represent a private
organization before federal agencies for at least two years after being
instructed by the Office of General Counsel to cease such activity. In
addition, we found that he had used government time and equipment to
perform volunteer services for the organization, and had loaded
unauthorized software onto a government computer in order to facilitate his
improper activities. (Washington Field Office of Investigations)




                                                         - 33 -
                                                  International
                                                  Trade Administration

   The International Trade             Audit of ITA’s FY 1996
Administration is responsible for      Combined Financial Statements
most non-agricultural U.S. trade
issues and works with the Office                ITA has serious financial management problems requiring prompt
of the U.S. Trade Representative       corrective action. For the third consecutive year, the contractor CPA firm
in coordinating U.S. trade policy.     was unable to express an opinion on the combined statement of financial
ITA has four principal units:
                                       position because of deficiencies in internal controls and automated systems.
   Market Access and                   The nature and extent of the deficiencies indicate serious problems in ITA’s
Compliance. MAC develops and
                                       financial management. The firm identified the following material weaknesses
implements international
economic policies of a bilateral,      as reasons for disclaiming an opinion on the financial statements:
multilateral, or regional nature. It   !       ITA maintained insufficient documentation to adequately support
promotes trade, investment, and                recorded balances and did not properly record transactions in the
commercial relations, and
                                               areas of accounts receivable, property and equipment, accounts
maintains comprehensive
                                               payable, capital lease liabilities, unearned revenue, Foreign Service
commercial and economic data on
countries and regions of the world.            National voluntary separation pay liability, and unliquidated
                                               obligations. In addition, inventory balances were not compiled or
   Trade Development. TD
advises on international trade and             recorded, and equity balances were not accurately recorded.
investment policies pertaining to      !       ITA’s financial systems were not fully integrated, and source data
U.S. industrial sectors, carries out           entered into off-line systems was not ultimately reconciled to the
programs to strengthen domestic
                                               official accounting system.
export competitiveness, and
promotes U.S. industry’s               !       There was inadequate segregation of recording, reconciling, and
increased participation in                     adjusting financial data from functions relating to automated system
international markets.                         programming and security.
   Import Administration. IA
defends American industry against      !       ITA’s financial systems were inadequate to identify and record
injurious and unfair trade                     overseas activity affecting any of its asset and liability balances.
practices by administering the
                                       !       ITA’s financial systems did not adequately track collections,
antidumping and countervailing
duty laws of the United States, and            expenditures, and excess receipts arising from the sale of goods and
enforcing other trade laws and                 services to the public.
agreements negotiated to address       !       ITA lacked an effective personnel structure to ensure adequate
such trade practices.
                                               financial management control over its operations, a situation
   U.S. and Foreign Commercial                 exacerbated by its lack of a Chief Financial Officer.
Service. US&FCS promotes the
exports of U.S. companies and                   The four reportable conditions identified in the bureau’s internal
helps small and medium-sized           controls dealt with the need for ITA to (1) strengthen controls over cash
businesses market their goods and      collected at its overseas posts, (2) strengthen its funds control procedures
services abroad. It has 98 domestic    over both its domestic and overseas operations, (3) develop core perform-
offices and 140 overseas posts in      ance measures and establish systems to accurately capture performance
75 countries.
                                       information, and (4) establish a formal business continuity/disaster recovery
                                       plan at either ITA or at the National Transportation Safety Board.


                                               - 34 -
                                                             International Trade Administration




        The firm’s tests of compliance with laws and regulations disclosed that
ITA’s management has not complied with the FMFIA requirements to
establish internal administrative and accounting controls in accordance with              International Trade
                                                                                             Administration
standards established by the Comptroller General of the United States. In
addition, ITA did not comply with the provisions of OMB Circular A-127,
Financial Management Systems.                                                        Import             Market Access
                                                                                  Administration        & Compliance


         ITA’s management has not actively pursued its identified corrective
actions, and without a change in focus on the part of management, these                                 U.S. & Foreign
                                                                                     Trade
                                                                                                         Commercial
weaknesses will not be adequately addressed in the near future. All of the        Development
                                                                                                           Service
material weaknesses and reportable conditions reported in last year’s audit
of ITA’s financial statements were reported again in the FY 1996 audit.
Dramatic corrective actions are needed because ITA’s current financial
management structure has not proven to be effective in establishing adequate
financial management systems and controls. Without a comprehensive,
coordinated effort, ITA’s financial operations are likely to continue to be
disjointed, leaving its operating divisions to run their own independent
financial management systems.
         It is imperative that ITA (1) establish a financial organization
headed by a CFO that contains sufficient human resources at all levels of
financial management and (2) promptly take the actions necessary to address
the deficiencies in its financial systems, policies, and procedures.
         ITA has agreed, in principle, to establish a consolidated financial
organization headed by a CFO and a Deputy CFO. The CFO position must
be placed within the ITA organization at a level that provides total control
over all financial management functions of the agency. (Financial
Statements Contract Audit Division: FSC-8838-7-0001)

Advocacy Center Achievements
Need Better Documentation
         Established in 1993 as part of the Clinton administration’s National
Export Strategy, the Advocacy Center, within ITA’s Office of Trade
Development, is intended to assist U.S. businesses in obtaining contracts
controlled by foreign governments or quasi-governmental foreign entities,
such as utilities and airlines. The Center also works with the 19 federal
agencies of the Trade Promotion Coordinating Committee to develop
advocacy strategies.
          Before the National Export Strategy was developed, high-level
advocacy efforts tended to be ad hoc. One objective of the Advocacy Center was
to institutionalize the advocacy process and conduct it as an ongoing function.
Another objective was to have the Center serve as the hub of the process,
                                                        - 35 -
International Trade Administration




                       with the capacity to mobilize resources to organize and oversee a
                       coordinated advocacy effort. The Center had a staff of 21 at the end of
                       1996, and its FY 1996 budget was about $1.4 million. As part of an overall
                       review of the Office of Trade Development, the OIG reviewed the Center to
                       determine whether its resources were being used in the most effective,
                       efficient, and economical manner.
                               While any measure of the amount of U.S. exports supported by the
                       Center is somewhat speculative and often based on early estimates made by
                       the companies involved, an OIG review found that the Department’s
                       advocacy efforts over the past two years have contributed to the potential
                       export of about $36 billion of goods and services. Documentation for
                       exports supported was lacking when our review began, but substantial
                       improvements have been made since then. As a result, the Center was able
                       to provide at least minimal documentation for over 95 percent of the claims
                       made for exports supported during the two years.
                               Although the Advocacy Center has received praise from U.S.
                       businesses for its responsiveness and resourcefulness, we identified several
                       areas, mainly involving measuring and documenting exports claimed, that
                       warrant management’s attention:
                       !       Three issues need to be addressed to clarify the impact of advocacy
                               activities: (1) What constitutes an advocacy success? (2) At what
                               point should a success be claimed? (3) What role did the U.S.
                               government play?
                       !       Improved procedures and controls are needed to ensure that the
                               Center’s project data is current and that all data entries or changes,
                               significant actions and developments, and requests for assistance
                               declined are fully documented.
                       !       Procedures are needed to update the estimated claims for exports
                               supported, which are often based on figures provided in initial
                               applications for advocacy assistance. Procedures are also needed for
                               following up on projects and gathering data on actual sales.
                       !       Coordination with other ITA components needs improvement. The
                               Center should continue its efforts to include all areas of industry
                               and country expertise in the advocacy process. Clearer guidelines
                               are needed indicating how responsibilities should be shared over a
                               range of advocacy activities.
                               ITA generally agreed with our findings and recommendations.
                       (Trade and Information Division: TID-8375-7-0001)



                                        - 36 -
                                                             International Trade Administration




About $27,000 in Costs Disallowed
as Unapproved or Unsupported
         The OIG audited an ITA grant awarded to a Virginia organization
to establish a consortium office in Warsaw, Poland, to provide facilities and
services to facilitate contact between U.S. food processing companies and
Eastern European companies, and set up food laboratory facilities in Poland
and other countries in the region. The total project budget was $1 million, of
which the federal share was $500,000.
         For the period covered by our audit, October 1991 through May
1995, the recipient claimed total costs of about $560,000, of which we
questioned over $96,000. The questioned costs consisted primarily of
(1) costs that were neither included in the approved budget nor approved by
the grants officer, (2) administrative costs that could not be supported by
source documentation or exceeded the limit for transfers of funds between
direct cost categories, and (3) unallowable rent costs. In addition, the
recipient failed to complete nearly a third of the task elements in its work
plan. Most importantly, it did not set up a food laboratory, the centerpiece
of the plan.
         We recommended that the Department disallow the $96,000 in
questioned costs and recover the $48,000 in funds disbursed in excess of
allowable costs. We also recommended that the recipient not receive any
more funding from the Department until it has completed the work plan. In
its response to our final report, the Department provided its rationale for
reducing the questioned costs to about $27,000, and generally agreed with
our non-financial recommendation, proposing that if the recipient submits a
full report to ITA adequately explaining why all task elements were not
completed, the agency be allowed the discretion to decide whether to
consider future awards to the recipient. We accepted the Department’s
proposal for both the financial and non-financial recommendations.
(Economic Development Division: ADD-7756-7-0001)

Update
Sentencing. In our September 1996 issue (page 37), we reported the theft
conviction of an ITA employee who had conspired with a coworker to obtain
nearly $2,500 in fraudulent travel reimbursements from an agency imprest
fund. The employee subsequently resigned from the Department and, in
October 1996, was sentenced to three years’ probation and 100 hours of
community service, and was ordered to make full restitution to the
government. (Washington Field Office of Investigations)



                                                        - 37 -
                                                  Minority Business
                                                  Development Agency

   The Minority Business               MEGA Center Awardee Exhibited Poor Financial
Development Agency was created         Management and Performance
to help minority owned and
operated businesses achieve                     In March 1994, MBDA awarded a cooperative agreement worth
effective and equal participation in   nearly $3.1 million to a California for-profit consulting firm to operate the
the American free enterprise
                                       Los Angeles Minority Enterprise Growth Assistance (MEGA) Center for a
system and overcome the social
and economic disadvantages that        15-month period. MEGA centers are intended to provide more specialized,
have limited their participation in    comprehensive management and technical assistance to minority businesses
the past. MBDA provides                than is provided by MBDA-funded business development centers. The firm
management and technical               agreed to match the award with about $550,000 from its own funds and
assistance to minority firms upon      from fees for services provided. The agreement was not renewed when it
request, primarily through a           expired; however, additional funds were authorized for two months of
network of business development        closeout activities, bringing the total approved budget to about $3.7 million.
centers. It also promotes and
coordinates the efforts of other               The OIG’s final audit of the project, which superseded its earlier,
federal agencies in assisting or       interim audit (see March 1996 issue, page 41), found that the firm had failed
providing market opportunities for     to maintain financial management and internal control systems that comply
minority businesses.                   with federal standards. Moreover, we determined that the firm:
                                       !       Improperly claimed about $675,000 in costs, for which it received
                                               nearly $223,000 in unearned federal funds.
                                       !       Failed to pay more than $263,000 in project obligations on time,
                                               and was delinquent in remitting more than $483,000 in employee
                                               tax withholdings to IRS.
                                       !       Failed to satisfactorily provide services to minority businesses.
                                                We recommended that the Department disallow the questioned costs
                                       and recover the unearned disbursements. Because MBDA did not renew the
                                       award, we made no recommendations on our non-financial findings;
                                       however, we reported these findings to other federal agencies for them to
                                       consider before electing to do business with the firm. The audit is currently
                                       in the resolution process, and the firm recently submitted its response to the
                                       final audit report. (Atlanta Regional Office of Audits: ATL-8882-7-0001)

                                       Costs Incurred After End of
                                       Award Period Should Be Disallowed
                                               A for-profit corporation located in Virginia operated the
                                       Washington, D.C., Minority Business Development Center from August
                                       1988 through July 1996 under a series of MBDA cooperative agreements,
                                       each of which was awarded for a three-year cycle, with federal funding




                                                        - 38 -
                                                  Minority Business Development Agency




renewable on an annual basis. After completing two three-year awards for
the center’s operation, the corporation was selected for a third such award.                 Minority
For programmatic reasons, however, MBDA decided not to renew the award                      Business
                                                                                           Development
after 18 months, but amended it to provide funding for an additional six                     Agency

months to enable the corporation to close the center.
         An OIG audit found the costs claimed by the corporation to be           Finance &
                                                                                Administration
                                                                                                         Strategic
                                                                                                         Planning
allowable under the award, with the exception of about $16,000 in costs
incurred after the award closeout period ended on July 31, 1996. We
recommended that the Department disallow these costs. Corporation                 Program                External
officials argued that the costs should be allowed as award termination costs    Development               Affairs

under OMB Circular A-122. However, the award was not terminated in this
instance, but simply not renewed, and all eligible closeout costs were
included in the amended award. Under the circumstances, costs incurred
after the amendment should be disallowed. (Atlanta Regional Office of
Audits: ATL-9283-7-0001)

Audit of MBDA’s FY 1996 Financial Statements
         The OIG contracted with a CPA firm to audit MBDA’s FY 1996
statement of financial position and its related statement of operations and
changes in net position. The firm was able to issue an unqualified opinion on
the statements, indicating that MBDA has been successful in establishing
internal controls that facilitate the preparation of reliable accounting and
financial information.
         The firm’s review of MBDA’s internal controls identified no
material weaknesses and only one reportable condition in its internal control
structure. The condition was that MBDA lacked controls to ensure timely
compilation of key performance measures required for the overview of the
reporting entity. The firm recommended that MBDA assign overall
responsibility for the agency’s financial statements, including the overview,
to an MBDA official who is familiar with OMB and departmental reporting
requirements to ensure that all future key reporting deadlines are met.
MBDA concurred with the recommendation and expressed a commitment to
implement an audit action plan to address the finding. (Financial Statements
Contract Audit Division: FSC-8839-7-0001)




                                                       - 39 -
Minority Business Development Agency




                     Federal Court Upholds Department’s
                     Disallowance of Award Costs
                              In February 1997, the U.S. District Court for the Eastern District of
                     Arkansas entered a partial judgment in favor of the Department for $29,000,
                     plus interest and $6,700 in penalties, after a bench trial in which the
                     government established that the operator of an Arkansas minority business
                     development center was delinquent on a debt resulting from an OIG cost and
                     compliance audit of a three-year cooperative agreement award (see
                     September 1992 issue, page 42). The court also found that the operator was
                     in violation of its reporting requirements on two other MBDA cooperative
                     agreements, and deferred final decision on the government’s obligation to
                     reimburse the operator for costs incurred under those awards pending
                     submission of properly documented claims. The litigation was handled by
                     the U.S. Attorney’s Office and the Department’s Office of General Counsel,
                     with support from the Department’s Office of Executive Budgeting and
                     Assistance Management and our Atlanta Regional Office of Audits and
                     Office of Counsel.




                                      - 40 -
                          National Oceanic and
                     Atmospheric Administration

POES Excess Funding Results in                                                      The National Oceanic and
$100 Million to Be Put to Better Use                                             Atmospheric Administration
                                                                                 studies climate and global change;
         To help fulfill its mission of environmental forecasting and steward-   ensures protection of coastal
ship, NOAA manages the Polar-orbiting Operational Environmental                  oceans and management of marine
                                                                                 resources; provides weather
Satellite system. NOAA polar orbiting satellites are acquired by the
                                                                                 services; and manages worldwide
National Aeronautics and Space Administration pursuant to a 1973                 environmental data. It does this
Commerce-NASA memorandum of agreement. Under the agreement,                      through the following
NOAA determines the general requirements for new satellites and operates         organizations:
them once they are in orbit, while NASA handles their acquisition and               National Weather Service.
launch.                                                                          NWS reports the weather of the
                                                                                 United States and provides
         NOAA and NASA work together to plan and budget for POES.
                                                                                 weather forecasts and warnings to
NOAA includes funding for POES in its annual budget request based on             the general public.
NASA’s projected need for new funding. NASA uses the funds received
                                                                                    National Ocean Service. NOS
from NOAA for modifications to ongoing contracts for new work, projected         issues nautical and aeronautical
costs for completed work, and three months of forward funding for program        charts; performs geodetic surveys;
requirements for the beginning of the next fiscal year. Because NOAA             conducts research; and develops
receives no-year budget authority for POES, there are no time restrictions       policies on ocean mining and
on NASA’s use of these funds. However, funds not transferred by the end of       energy.
the fiscal year must be reported by NOAA as unobligated carryover.                  National Marine Fisheries
                                                                                 Service. NMFS conducts a
         The OIG conducted an inspection to determine how large balances
                                                                                 program of management,
of unspent NOAA funds had accumulated at NASA and how NOAA                       research, and services related to
managers identify and report unspent funding. We found that in FYs 1994-         the protection and rational use of
96, NOAA received more funding than it needed for POES because it failed         living marine resources.
to adjust its budget requests to reflect slowed spending in the program, and        National Environmental
it inappropriately transferred ground systems funds to the polar satellite       Satellite, Data, and Information
account at NASA.                                                                 Service. NESDIS observes the
                                                                                 environment by operating a
         By sending these funds to NASA, which then obligated them to its
                                                                                 national satellite system.
various contracts, NOAA was able to obscure the fact that program
                                                                                    Office of Oceanic and
spending had slowed. It also avoided having to identify the unspent funds as
                                                                                 Atmospheric Research. OAR
unobligated carryover, which enabled it to escape the scrutiny such funds        conducts research related to the
receive from the Department, OMB, and the Congress. As a result of this          oceans and inland waters, the
strategy, by the end of FY 1997, NOAA would have accumulated                     lower and upper atmosphere,
$89.8 million in excess funding, an amount that exceeds its entire FY 1997       space environment, and the Earth.
budget allocation for satellite acquisitions.                                       Office of NOAA Corps
                                                                                 Operations. The Corps is the
          We made several recommendations to correct NOAA’s poor
                                                                                 nation’s seventh uniformed
financial management and budgeting practices in acquiring new polar
                                                                                 service. Its ships, aircraft, and
satellites. In response to our findings and recommendations, the                 personnel support NOAA’s
                                                                                 activities throughout the world.




                                                        - 41 -
National Oceanic and Atmospheric Administration




                                     Department and OMB made more than $100 million in reductions to the
                                     POES budget. The Department also took immediate steps to strengthen
                 NOAA                management controls by (1) assigning an analyst to work full time with
                                     NASA staff to obtain better funding information, (2) reporting unobligated
                                     carryover funds and making plans to provide decision-makers with better
    National             National
    Weather              Ocean       program performance and spending information, and (3) agreeing to
    Service              Service
                                     eliminate transfers of funds to NASA that are not needed for forward
                                     funding, and to monitor transfers to ensure that funding is being used for its
    National
     Marine
                                     intended purpose.
                         NESDIS
    Fisheries
     Service
                                             We commend the Department for its prompt actions in response to
    Oceanic &            NOAA
                                     our recommendations. We are reviewing possible excess funding in
   Atmospheric
    Research
                          Corps
                        Operations
                                     NOAA’s other satellite budget accounts, and we will report on that review
                                     during the next semiannual period. We also are continuing to work with the
                                     Department and NOAA to strengthen management controls. (Office of
                                     Systems Evaluation: OSE-8797)

                                     GOES Acquisition Strategy Improved, But
                                     Store-in-Orbit Approach Needs Re-evaluation
                                               Under a program run jointly with the National Aeronautics and
                                     Space Administration, NOAA operates a two-satellite configuration of
                                     Geostationary Operational Environmental Satellites to monitor weather
                                     conditions in the United States and adjacent regions. NWS uses GOES data
                                     to issue advance warnings of severe storms and to forecast regional weather.
                                     Two of the current series of five satellites, GOES-I and J, were deployed in
                                     1994 and 1995, and are now referred to as GOES-8 and 9. The remaining
                                     satellites, GOES-K, L, and M, are to be launched beginning in 1997.
                                     Because GOES-8 and 9 are experiencing reliability problems that have
                                     increased the risk of a gap in coverage early next decade, NOAA has
                                     accelerated the launch schedule and plans also to accelerate the acquisition
                                     of a follow-on series of satellites.
                                              When the OIG began its inspection, NOAA planned to purchase the
                                     follow-on series non-competitively from the current GOES contractor.
                                     However, responding to criticism of its plan, NOAA developed a new
                                     strategy, the “evolutionary program,” for competitively procuring the
                                     follow-on satellites on a cost-reimbursement basis. To mitigate the risk of a
                                     coverage gap, NOAA also proposed to buy one or two stop-gap satellites on
                                     a sole source basis from the current contractor. Our inspection resulted in
                                     two primary observations:




                                                      - 42 -
                                   National Oceanic and Atmospheric Administration



C       NOAA has agreed to an improved GOES acquisition strategy.
        The evolutionary program, with its cost-reimbursement contract and
        changing requirements, was not focused on controlling the growth in
        cost or requirements. Moreover, the schedule for awarding the
        follow-on contract in 1999 exposed NOAA to a potentially wide
        coverage gap early next decade that could require the purchase of
        up to two stop-gap satellites. However, NOAA’s plan to purchase
        the stop-gap satellites noncompetitively was difficult to justify
        under federal procurement regulations and possibly unnecessary if
        procurement were accelerated.
        In response to pressure from the Congress, NASA, the satellite
        industry, and our office, NOAA agreed to pursue two procurement
        plans proposed by NASA that control costs and risks. It will request
        NASA to immediately start a competitive procurement of two to
        four follow-on satellites through a fixed-price contract to be
        awarded in 1997. Simultaneously, it will request NASA to enter
        into an agreement with the current contractor for a phased
        procurement of one stop-gap satellite if needed as insurance against
        a coverage gap; later phases of the procurement will not be started
        if a coverage gap seems unlikely.
!       Early launch of GOES-K is reasonable, but storing a backup in
        space may not be cost-effective in the future. Launching GOES-K
        two years earlier than planned is a reasonable contingency for
        insuring against a coverage gap. However, we do not believe that
        NOAA and NASA have shown that launching a satellite early for
        storage in space as a backup is a cost-effective policy for ensuring
        future continuity. Although the agencies cite many cost and risk
        advantages of in-orbit storage, we believe that before storing
        another satellite in space, NOAA should conduct more complete
        analyses of costs, benefits, risks, and backup alternatives. NOAA
        also should make every effort to preserve GOES-K’s mission life
        while it is in a backup mode.
         We made several recommendations to NOAA to address our
concerns. In response to our draft report, NOAA agreed with our findings
and with all but one of our recommendations, which is to develop a plan for
replacing failing GOES satellites that considers options other than storing a
backup in orbit. NOAA stated that we overemphasized the likelihood and
cost of losing mission life for a stored-in-orbit satellite. NOAA’s argument
did not change our views on this issue, and we reaffirmed the
recommendation in our final report. (Office of Systems Evaluation: OSE-
8784)



                                                         - 43 -
National Oceanic and Atmospheric Administration




                      Audit of NOAA’s FY 1996
                      Consolidating Financial Statements
                               A contractor CPA firm that audited NOAA’s FY 1996 consoli-
                      dating financial statements was unable to express an opinion on the
                      statements because of deficiencies in the bureau’s accounting records and
                      internal controls. The nature and extent of the internal control deficiencies
                      identified indicate that while significant progress has been made, substantial
                      corrective action is still needed before NOAA can have reasonable
                      assurance that amounts reported in the financial statements are fairly stated.
                      Although a number of material weaknesses and reportable conditions
                      remain, NOAA has made significant progress toward resolving them.
                               The firm identified 11 material weaknesses in its report on internal
                      controls. The material weaknesses involved NOAA’s financial reporting
                      structure; automated data processing systems; “on-top” adjustments;
                      budgetary execution transactions; property, plant, and equipment; capital
                      and operating leases; loan portfolios; environmental liabilities; accounts
                      payable and unliquidated obligations; “in-transit” items related to fund
                      balances with Treasury; and grants. Two material weaknesses identified in
                      the FY 1995 report on internal control—contractor retainages and deposit
                      fund holdings—were eliminated, while the deficiency relating to budgetary
                      execution transactions was added. The firm also identified 10 reportable
                      conditions. Many of the material weaknesses result from NOAA’s use of
                      antiquated management information systems. The Department and NOAA
                      are taking corrective action by implementing a new accounting and
                      management information system, the Commerce Administrative
                      Management System.
                               We are encouraged by the corrective actions NOAA has taken in
                      recent years to improve its financial management. NOAA’s commitment to
                      such improvement is demonstrated by its designation of a Chief Financial
                      Officer/Chief Administrative Officer, who is responsible for all budgetary,
                      finance, systems, human resources, and other administrative functions; its
                      development of a comprehensive action plan to address the deficiencies
                      identified in the prior year’s report on internal controls; and its commitment
                      of additional resources to accounting. However, it is imperative that NOAA
                      continue its efforts to correct the identified material weaknesses and
                      reportable conditions and to provide the necessary resources to implement
                      its corrective actions. After the issuance of the audit report, NOAA held its
                      second annual CFO Act Conference to formulate action plans to address the
                      findings and recommendations in the internal control report.



                                                       - 44 -
                                   National Oceanic and Atmospheric Administration



        NOAA generally concurred with the findings and recommendations
contained in the report on internal controls; however, it took exception to the
inclusion of the bureau’s financial reporting structure as a material
weakness. We continue to support the CPA firm’s position on this issue
because we feel that the presentation of financial information under a true
program office and activity structure facilitates improved control over
business operations and supports more effective management decisions, and
provides essential information to oversight groups responsible for providing
financial guidance to the bureau. (Financial Statements Contract Audit
Division: FSC-8841-7-0001)

NMFS Should Pursue New Initiatives
for Its Fishery Programs
         Under the Magnuson-Stevens Act, fisheries in the exclusive
economic zone off the California, Oregon, and Washington coasts are
managed by the Pacific Fishery Management Council, and the groundfish
fisheries in the zone are managed under the Pacific Coast Fishery
Management Plan. In 1991, in response to industry concerns about the West
Coast groundfish fishery, the council adopted a plan to restrict the fishery’s
vessel harvest capacity through a license limitation system.
         The OIG conducted an audit to determine whether the groundfish
limited entry plan accomplished its purpose, and whether fees should be
collected on groundfish and other fisheries to fund fishery management
programs.
         Our audit concluded that the National Marine Fisheries Service
(NMFS) could improve its management of fisheries in the Pacific Northwest
and Alaska by generating fees from all commercial fisheries. The
Magnuson-Stevens Act generally does not allow NMFS to raise fees through
the sale of limited entry permits. Recent changes to the act will allow the
agency, starting in January 2000, to collect fees on the commercial value of
fish landings under Individual Fishing and Community Development Quota
programs. We believe that the act should be expanded to allow NMFS to
generate fees in other areas:
!       From the issuance of limited entry fishing permits. Although
        these permits generated $65 million in private wealth in the
        groundfish industry, NMFS has not received any financial benefit.
!       From fees based on the commercial value of fish landings for all
        commercial fisheries. Over the last two years, NMFS has spent
        over $180 million to manage and enforce the fishery



                                                         - 45 -
National Oceanic and Atmospheric Administration




                             management programs in the Pacific Northwest and Alaska, but the
                             fishing industry has contributed no funds to help cover these costs.
                             Collecting funds from the fishing industry in exchange for the taking
                     of public assets is in line with the National Performance Review’s emphasis
                     on having federal agencies operate in a more businesslike manner.
                             We also found that although the limited entry plan had met its goal of
                     capping the groundfish fishery’s vessel harvest capacity, the fishery still has
                     excess harvest capacity, which jeopardizes its long-term economic stability.
                     As a result, the whiting trawl industry is lobbying for a permit buyback
                     program to alleviate the overcapacity problem. However, we believe that any
                     buyback program should be funded by the industry.
                              We recommended that NOAA propose an amendment to the
                     Magnuson-Stevens Act allowing NMFS to (1) auction, sell, or otherwise
                     collect fees from the issuance of fishery permits, and (2) assess fees on all
                     commercial fisheries in the exclusive economic zone. We also recommended
                     that NOAA assist the Pacific Fishery Management Council in determining the
                     excess vessel capacity in the Pacific Coast groundfish fishery and encourage
                     the Council to implement an industry-funded buyback program. By
                     implementing these recommendations, NOAA could raise $95 million over
                     two years for fishery management and enforcement in the Pacific Northwest
                     and Alaska.
                              NOAA agreed with some of our findings and recommendations, but
                     disagreed with others. Specifically, NOAA endorsed the concept of collecting
                     fees from commercial fisheries and said that our estimate of potential fees was
                     reasonable. However, it disagreed that it should propose that the Council
                     implement an industry-funded buyback program. In addition, while agreeing
                     that the groundfish excess vessel capacity should be assessed, NOAA said that
                     the Council was already taking steps to do so. (Seattle Regional Office of
                     Audits: STL-8703-7-0001)

                     Northwest Emergency Assistance Plan Funds
                     Can Be Used More Effectively
                              In 1994 the Secretary of Commerce declared a salmon fishery
                     resource disaster along the California, Oregon, and Washington coasts
                     because of depleted salmon stocks. To alleviate the economic impacts of the
                     fishery disaster, the Secretary established the $12 million Northwest
                     Emergency Assistance Plan (NEAP). In 1995, the Secretary declared that the
                     disaster continued to exist for those states, and provided another $13 million
                     for the NEAP program.



                                       - 46 -
                                   National Oceanic and Atmospheric Administration



         The NEAP program, authorized by the Interjurisdictional Fisheries
Act, is designed to provide economic assistance to eligible salmon fishermen
and to fund projects that conserve or help restore the fishery resource. The
program consists of three segments: (1) buying back Washington state
commercial salmon permits to provide economic assistance to salmon
fishermen and reduce harvest capacity, (2) funding projects that employ
fishermen to restore salmon habitats, and (3) funding projects that employ
fishermen to assist in data collection for fishery resource studies.
         The OIG conducted an audit of the program to determine its
effectiveness in providing economic assistance to salmon fishermen and in
conserving or restoring the fishery resource, and to identify potential program
improvements. We found that, while the program was achieving the goal of
providing assistance to fishermen, funds could be used more effectively to
conserve or restore the fishery resource. Specifically:
!       The permit buyback program, implemented just for Washington,
        addressed only one of the program goals—providing economic
        assistance to salmon fishermen. The $9.25 million allocated for this
        program could be used more effectively in habitat restoration and data
        collection projects, which promote both goals—providing assistance
        and conserving or restoring the fishery resource.
!       The habitat restoration and data collection programs were generally
        effective in achieving NEAP goals, but the benefits derived from
        several projects were questionable.
         We recommended that NOAA (1) eliminate future funding of permit
buyback programs and reallocate the funds to salmon habitat restoration and
data collection programs, and (2) revise project funding criteria to ensure that
habitat restoration and data collection projects comply with the requirements of
the Fisheries Act and the Secretary’s disaster declaration. Current funding for
the program will expire in January 1998. However, should NOAA seek
additional funding, implementing our recommendations would provide the
Department with $10.5 million in funds that could be put to better use by
redirecting permit buyback funds to the habitat restoration and data collection
segments of the program, which can be used to assist more needy fishermen
and fund more projects to benefit the fishery resource.
         NOAA disagreed that funds for permit buybacks should be redirected
to habitat restoration and data collection and that some of the habitat
restoration and data collection projects were not meeting program goals. It also
disagreed with our calculation of funds to be put to better use. NOAA did agree
to more carefully monitor future NEAP funding to ensure that projects comply
with program goals. (Seattle Regional Office of Audits: STL-8518-7-0001)



                                                         - 47 -
National Oceanic and Atmospheric Administration




                      Expanded Vessel Buyout Program Not Needed
                               Because of increased fishing activity and improved fishing
                      technology, the principal groundfish stocks in the Northeast fishery are at
                      record low levels, threatening their long-term future. In response to this
                      crisis, NOAA established a two-phase program to help facilitate the
                      recovery of the stocks by purchasing selected fishing vessels in order to
                      reduce fishing capacity. Under the first, pilot phase of the program, NOAA
                      awarded 11 grants totaling nearly $2 million to New England vessel owners
                      in return for their agreeing to scrap their vessels and surrender their fishing
                      permits. The second phase is a $23 million expanded vessel buyout
                      program, funded from $65 million in “no year” Defense appropriations
                      transferred to the Commerce Department to address fishing resource
                      disasters in the Northeast, Pacific Northwest, and Gulf of Mexico.
                               After declaring the fishery a disaster, the Department provided
                      $30 million in emergency assistance to the Northeast. EDA used $18 mil-
                      lion to help fishermen refinance debt and obtain technical assistance to
                      pursue other occupations, and NOAA used $12 million to restructure debt,
                      make grants for alternative markets and on-shore infrastructure, and
                      establish one-stop shops to publicize available federal assistance. Also in
                      response to the crisis, the New England Fishery Management Council
                      obtained Department approval to take emergency actions to modify its
                      fishery management plan. On July 1, 1996, the council adopted Amend-
                      ment 7, which was intended to rebuild groundfish stocks by reducing fishing
                      mortality rates to near zero.
                                An OIG audit determined that the expanded buyout program is not
                      needed as a fishery conservation measure because of the passage of
                      Amendment 7 to the fishery management plan, which should solve the
                      groundfish crisis in the Northeast. The amendment contains severe
                      restrictions that will drastically reduce fishing effort and surpass any
                      potential reductions in effort achieved through the buyout program.
                      Moreover, the program is not needed as an economic assistance tool
                      because (1) it is a narrowly focused measure applicable to vessel owners
                      only, and (2) the many other federal, state, and local economic assistance
                      programs available to Northeast fishing communities appear to more
                      effectively promote long-term economic stability.
                              We recommended that NOAA cancel the buyout program, transfer
                      an appropriate amount of funding to existing federal programs that can
                      better meet the needs of the Northeast fishing community, and transfer any
                      remaining unused funds to the Treasury.



                                       - 48 -
                                  National Oceanic and Atmospheric Administration



         In its response to our draft report, NOAA downplayed the impact of
the amended fishery management plan, but did not refute our conclusion that
the existence of broader economic programs obviates the need for the buyout
program. We are continuing to negotiate with NOAA officials to achieve a
satisfactory resolution of our recommendations. (Environment and
Technology: ENT-8657-7-0001)

Weather Service Modernization Support Service
Contract to Be Reduced
         To assist in its modernization and restructuring program, the National
Weather Service has been acquiring system engineering and technical support
services through level-of-effort contracts, under which costs are incurred as
services are acquired. For these contracts, the contracting officer initially
negotiates the estimated total cost, including option years, based on minimum
and maximum levels of effort and predetermined labor rates for the various
skills required. As program needs arise, task orders are issued, and specific
resource estimates are negotiated for each task. The contract remains in effect
until the maximum level of effort is reached or the contract expires, whichever
comes first.
         NOAA has spent over $34 million on support service contracts for
the NWS modernization and restructuring program since 1983, and another
contract, with a potential value of $28 million, was recently awarded. An OIG
review of an earlier contract disclosed that NWS had allowed the contractor
to use higher skilled employees than agreed to, increasing the cost of the
services. When NOAA reached the dollar limit for its 1992 contract earlier
than planned, we became concerned that a similar situation existed and
initiated a limited review of the contract and its planned replacement.
        We found that the contract, originally scheduled to expire in May
1997, appeared to be well managed, even though it ran out of funds early in
FY 1997. According to NWS officials, unforeseen complications with
deploying new systems and congressionally mandated certification proce-
dures resulted in the need for increased contractor support.
        We also found that the level of effort projected for the new contract,
which was awarded in September 1996 and is scheduled to run through 2001,
appeared too high for the phasing-down period of the modernization effort.
We recommended that NOAA officials evaluate the projected level of effort.
They agreed and reduced the staffing requirements from 305 staff years to
215 over the five-year life of the contract. This action will reduce NOAA’s
cost projections by about $6.3 million, which can be put to better use.
(Environment and Technology: ENT-8749-7-0001)



                                                        - 49 -
National Oceanic and Atmospheric Administration




                    Concerns About Aviation Safety at Montana
                    Airports Being Addressed
                             Senator Max Baucus requested that the OIG conduct an independent
                    analysis of claims made by some of his constituents who work as weather
                    observers that the Livingston, Montana, airport’s Automated Surface
                    Observing System is unreliable, that it blocks radio transmissions from the
                    airport, and that weather observers need to be retained at several Montana
                    airports to ensure aviation safety. The airports involved are among those that
                    have been designated by a team of government and industry representatives as
                    ones where the ASOS units will be operating alone, without human
                    augmentation or backup.
                             After reviewing the status of the ASOS program and talking to
                    representatives from the National Weather Service and the Federal Aviation
                    Administration (FAA), we concluded that NWS, FAA, and the aviation
                    industry have established appropriate standards for surface observations at the
                    nation’s airports, including the Montana airports in question. We believe that
                    the processes established for the transition of ASOS sites to stand-alone
                    operation, and the provisions that FAA is putting in place to allow local
                    personnel to assist with ASOS augmentation and backup (at local expense),
                    will be adequate to ensure aviation safety. (Office of Systems Evaluation)

                    Proposal to Convert Seafood Inspection Program
                    to a PBO Is Premature
                             Legislation has been drafted to convert NMFS’s Inspection Services
                    Division to a performance based organization. At the request of the Assistant
                    Administrator for Fisheries, the OIG evaluated the conversion plan and
                    strategies to move the division from a government operation to a PBO. We
                    determined that NOAA had not fully considered alternatives to establishing a
                    PBO, particularly the alternative of incorporating the proposed PBO functions
                    into the Food and Drug Administration, which has similar inspection duties
                    and has been directed to broaden its inspection services.
                            Moreover, a business plan for the proposed PBO has not been
                    developed. NOAA’s draft prospectus for the PBO is inadequate because it
                    does not assess the market for inspection services; evaluate the competition,
                    especially in terms of market share and price structures; or adequately describe
                    the organization and management structure and required staffing of the
                    proposed PBO. NOAA needs to demonstrate that the PBO can compete in an
                    open market and that its revenues will cover its costs. (Seattle Regional Office
                    of Audits)



                                        - 50 -
                                   National Oceanic and Atmospheric Administration



Audit Reports Unresolved for Over Six Months
        As of March 31, 1997, there were three performance audit reports,
one financial assistance audit report, and two preaward contract audit
reports with recommendations unresolved for more than six months.

NWS Headquarters and Support Operations Staffing
        The performance audit report, National Weather Service Should
Streamline Its Headquarters and Support Operations, NOA 6979-6-0001
(see March 1996 issue, page 48), identified 258 NWS positions that
appeared to be good candidates for elimination, and 187 positions in other
areas that could be outsourced, restructured, or eliminated.
         NOAA agreed with our recommendation that NWS develop and
implement plans for streamlining headquarters functions. However, NOAA
disagreed with our findings and recommendations on both the elimination of
positions and the resulting savings. Recently, NOAA provided us with a
description of NWS’s current plan for streamlining and re-engineering its
centralized support and administration activities. The actions outlined in the
plan address many of the areas that we suggested be streamlined. An
analysis of the plan indicates that the efforts will eliminate 192 headquarters
and support positions, with funds to be put to better use of $12.7 million.
We concluded that, by taking these steps, NWS officials met the intent of
our recommendation. In mid-April, after this reporting period, the report
was recorded as resolved.

OAR Cost Recovery for Sponsored Research
         In our audit report, OAR’s Cost Recovery for Sponsored Research
Needs Improvement, STL-7658-6-0001 (see September 1996 issue,
page 40), we noted that OAR was not recovering full costs for sponsored
projects; was using unsupported overhead rates in 6 of the 12 labs, was
expending sponsors’ funds beyond the expiration of the sponsors’ appro-
priations, and was not preparing sponsored research agreements in
accordance with statutory requirements and departmental policies.
         NOAA agreed with most of our recommendations to correct these
deficiencies; however, it did not concur with the findings, recommendations,
or funds to be put to better use related to unsupported overhead rates.
NOAA also disagreed with our findings regarding misuse of one-year funds
but agreed with our recommendation. In addition, NOAA did not agree with
our computation of funds to be put to better use for direct labor not
recovered. We reaffirmed our recommendations and are currently reviewing
NOAA’s revised audit action plan.



                                                          - 51 -
National Oceanic and Atmospheric Administration




                      Consolidation of NWS Tsunami Warning Program

                              We concluded in our audit report, NWS Tsunami Warning Program
                      Should Be Consolidated, STL-7066-6-0001 (see September 1996 issue,
                      page 41), that the tsunami warning centers in Hawaii and Alaska could be
                      eliminated by transferring some duties to the Interior Department’s U.S.
                      Geological Survey, having some duties assumed by other NOAA offices, and
                      leaving other duties to the states. NOAA disagreed with our findings and
                      recommendations. NOAA believes that the recommended actions would
                      reduce program effectiveness and increase program costs. Over the next 60
                      days, we will review the issues raised by NOAA to determine whether there
                      are other resolution options available.

                      University of Hawaii
                              This financial assistance audit report, ATL-9999-5-0753 (see
                      September 1995 issue, page 99), was an OMB Circular A-133 audit that
                      questioned $1.1 million of claimed costs. NOAA requested that resolution be
                      deferred until a final determination of the allowablity of costs has been made
                      by the Defense Contract Audit Agency and negotiations regarding ship day
                      rates and other costs for specialized service research are completed by the
                      Office of Naval Research, the cognizant agency for the University in
                      resolving issues identified in the audit. NOAA expects to receive the DCAA
                      report and the Office of Naval Research final determination in May 1997.

                      Preaward Contract Audit Reports
                              The two NOAA preaward contract audit reports are discussed on
                      page 85.




                                        - 52 -
               National Telecommunications
              and Information Administration

“Information Superhighway” Program
                                                                                   The mission of the National
Oversight Strengthened                                                          Telecommunications and
                                                                                Information Administration is
        NTIA’s Telecommunications and Information Infrastructure                (a) to serve through the Secretary
Assistance Program, commonly known as the “Information Superhighway”            of Commerce as the principal
Program, was created in 1994 to advance the goals of the National               executive branch advisor to the
Information Infrastructure initiative. Under the program, NTIA provides         President on domestic and
matching grants for the planning and construction of telecommunications         international communications and
networks to state and local governments, nonprofit health care providers,       information policies, (b) to ensure
school districts, libraries, universities, public safety services, and other    effective and efficient federal use
                                                                                of the electro-magnetic spectrum,
nonprofit entities.
                                                                                (c) to develop with other federal
         Since its inception, NTIA has awarded 277 grants totaling about        agencies policies for international
$78.6 million in all 50 states, the District of Columbia, and the Virgin        communications and standards-
Islands. NTIA’s Office of Telecommunications and Information                    setting organizations, (d) to serve
Applications (OTIA) is responsible for managing the program, which has a        as the federal telecommunications
                                                                                research and engineering center,
FY 1997 budget of $21.5 million.
                                                                                and (e) to administer grants under
         An OIG review of several program grants disclosed significant          the Information Infrastructure
programmatic and financial problems, attributable in large part to              Grants Program and the Public
inadequate program management staffing. For example, OTIA program               Telecommuncations Facilities
                                                                                Program.
officers did not normally visit grantees and rarely contacted them by
telephone, conducted only perfunctory reviews of grantee status reports and
took no action when significant problems were indicated, and did not ensure
that grantees were aware of federal grant requirements, particularly those
pertaining to matching funds. Moreover, OTIA did not require independent
evaluations of grant results, did not have a mechanism for grantees to
exchange useful information with each other, and required program officers
to perform routine administrative work to the detriment of their monitoring
responsibilities.
         OTIA officials agreed with our findings, but said that because of
spending and staffing restrictions, they lacked the resources to both process
applications and monitor grants. These restrictions were lifted in the summer
of 1996, and NTIA officials have since taken a number of significant
actions to implement our recommendations. For example, OTIA:
!       Has established an on-site monitoring program and conducted visits
        of 25 grantees during August-October 1996.
!       Is having its program officers make detailed analyses of grantee
        status reports, contact grantees if the reports indicate any problem
        areas or concerns, and forward the analyses to the Department for
        appropriate action.




                                                        - 53 -
National Telecommunications and Information Administration




                                        !       Is using oral and written guidance to ensure that grantees
                                                understand federal requirements for in-kind matching funds.
                 NTIA
                                        !       Is hiring a full-time evaluation specialist and contracting for an
                                                evaluation survey of all existing grants and the development of a
   Spectrum                Policy
                         Analysis &
                                                system for ongoing data collection and evaluation.
  Management
                        Development
                                        !       Is using group meetings, publications, and an on-line discussion
                                                group to stimulate information exchange among grantees.
  Telecom. &            Institute for
  Information
  Applications
                         Telecom.
                         Sciences
                                        !       Is adding three grants assistant positions to handle routine admin-
                                                istrative and clerical work.
                                                NTIA took immediate action on our recommendations and appears
                                        committed to implementing effective monitoring for the program. We believe
                                        the program has been significantly improved by NTIA’s actions. (Trade and
                                        Information Division: TID-8427-7-0001).

                                        Public Library Ultimately Supported
                                        $1.5 Million in Questioned Costs
                                                In 1994 NTIA awarded a $450,000 “Information Superhighway”
                                        program grant to a public library in North Carolina to fund a regional
                                        telecommunications project. The grant agreement required $790,000 in
                                        matching funds, for a total project budget of $1,240,000. The grant was
                                        amended in 1995, adding another $500,000 in grant funds, with matching
                                        funds of $780,000, for a total revised budget of about $2,500,000.
                                                The purpose of the project was to provide free access to a regional
                                        telecommunications network for information, education, and
                                        communication. The matching funds were to be provided by the grantee,
                                        along with various third-party contributors, including the local school
                                        system, which was to provide about half of the match.
                                                 An OIG audit disclosed that the library improperly valued and
                                        inadequately supported about $1.5 million in third-party in-kind contribu-
                                        tions toward matching costs. We recommended that NTIA (1) disallow the
                                        $1.5 million in improperly claimed in-kind contributions, (2) recover nearly
                                        $200,000 in excess grant disbursements, and (3) require the library to
                                        develop a verifiable basis to value the school system’s in-kind contributions.
                                                In response to our final report, library officials submitted new
                                        information supporting the in-kind contributions and satisfying all in-kind
                                        costs questioned. (Atlanta Regional Office of Audits: ATL-8689-7-0001)



                                                         - 54 -
                National Telecommunications and Information Administration




Audit of NTIA’s FY 1996 Financial Statements
         The OIG contracted with a CPA firm to conduct an audit of NTIA’s
FY 1996 financial statements. In the firm’s opinion, NTIA’s statements
present fairly its financial position as of September 30, 1996 and 1995, and
the results of its operations and changes in net position, in conformity with
federal accounting principles and standards. The firm did not identify any
material weaknesses or reportable conditions in NTIA’s internal control
structure.
         We commend NTIA on the results of this audit, which clearly
indicate that it has made significant improvements in its financial and
accounting practices. (Financial Statements Contract Audit Division:
FSC-8842-7-0001)




                                                        - 55 -
                                               Patent and
                                               Trademark Office

   The Patent and Trademark          Audit of PTO’s Financial Statements
Office administers the nation’s      as of September 30, 1996 and 1995
patent and trademark laws.
Patents are granted, and                     The OIG performed an audit of PTO’s financial statements as of
trademarks registered, under a       September 30, 1996 and 1995. This was the fourth audit of PTO, the third
system intended to provide
                                     covering all of the agency’s financial statements under the requirements of
incentives to invent, to invest in
research, to commercialize new
                                     the CFO Act, as expanded by GMRA. All four audits resulted in unqualified
technology, and to draw attention    opinions.
to inventions that would otherwise            Although unqualified opinions have been issued on the financial
go unnoticed. PTO also collects,
                                     statements, significant internal control matters remain to be addressed. Our
assembles, publishes, and
                                     review of PTO’s internal control structure disclosed three reportable
disseminates technological infor-
mation disclosed in patents.         conditions, of which the first two were considered material weaknesses and
                                     all of which were repeat conditions. Actions recommended to correct these
                                     conditions are:
                                     !       Improving procedures for accounting for capital assets.
                                     !       Improving the preparation, analysis, and monitoring of financial
                                             information.
                                     !       Depositing cash receipts in a timely manner.
                                             We also noted one other matter—that PTO should present com-
                                     bining statements.
                                              These matters relate to the lack of sufficient staff in PTO’s Office
                                     of Finance. Although we have previously recommended that PTO hire
                                     additional staff with backgrounds in the preparation or auditing of financial
                                     statements, this has not been accomplished to date. Instead, PTO hired
                                     several contractors to support its operations; however, our audit procedures
                                     identified numerous deficiencies in their work. We strongly believe that the
                                     Office of Finance does not currently have adequate staffing to properly train
                                     and supervise contractors or to perform the functions necessary to correct
                                     these deficiencies.
                                              As PTO continues its efforts to become a performance based
                                     organization, the importance of resolving the findings identified during our
                                     audits is heightened. Successful implementation of our recommendations
                                     would provide PTO with a strong financial base, thereby making the
                                     transition to a PBO, if it happens, smoother. (Financial Statements Audit
                                     Division: FSD-8833-7-0001)




                                                      - 56 -
                                                                   Patent and Trademark Office




OIG Continues to Monitor Legislation to Establish
PTO as a PBO or Government Corporation                                                        Patent &
                                                                                          Trademark Office


         During this reporting period, we continued to review various
                                                                                 Assistant              Assistant
legislative proposals that would establish PTO as a performance based          Commissioner
                                                                                   for
                                                                                                      Commissioner
                                                                                                           for
organization or a government corporation, and to comment, as appropriate,        Patents               Trademarks

on the adequacy of their provisions for Inspector General oversight. As
reported earlier (see September 1996 issue, page 55), we concur with the          Associate
                                                                                Commissioner
                                                                                                          Chief
                                                                                                       Information
administration’s position that all new government corporations should              & Chief
                                                                               Financial Officer
                                                                                                          Officer

remain under the supervision of an existing federal department or agency.
Consistent with this position, if PTO becomes a PBO or a government
corporation, it should remain under Department of Commerce supervision,
and the Commerce IG should serve as its IG.
         In early February, we reviewed and concurred with the Depart-
ment’s draft legislative proposal that would establish PTO as a PBO. Under
this proposal, PTO would remain an agency of the Department of
Commerce, reporting to the Secretary of Commerce, and subject to the
direction of the Under Secretary of Commerce for Intellectual Property on
patent and trademark policy matters. The Department of Commerce’s IG
would remain as its IG.
         Several bills recently introduced in the House and Senate would
establish PTO as a wholly owned government corporation. We are working
with the Department and the appropriate congressional committees to ensure
that adequate provisions for IG oversight are incorporated into these bills.




                                                       - 57 -
                                               Technology
                                               Administration

   The Technology Adminis-           NTIS Traditional Mission Is Well Run,
tration serves the needs of          But Expansionary Activities Need Attention
technology-based industry,
advocates federal actions and                The OIG conducted a program evaluation of NTIS’s operations,
policies to speed the transfer of    which included assessing how efficiently and effectively it pursues its
technology from the laboratory to
                                     primary mission of collecting and disseminating scientific, technical, and
the marketplace, and removes
barriers for commercializing new     engineering information. We also examined the agency’s recent
technologies by industry. It         “expansionary” activities. Our evaluation disclosed the following:
includes three major                 !       NTIS has successfully managed most of its mandated activities.
organizations:
                                             NTIS has worked effectively with other federal agencies to increase
   Office of Technology Policy.              its inventory of the nation’s scientific, technical, and engineering
OTP works to raise national
                                             information, in compliance with the American Technology
awareness of the competitive
challenge, promotes
                                             Preeminence Act, and is aggressively striving to broaden its market.
industry/government/university       !       NTIS has been responsive to the needs of its customers. NTIS
partnerships, fosters quick                  staff appear to place a strong emphasis on customer service, and
commercialization of federal
                                             customers overwhelmingly expressed satisfaction with the agency’s
research results, promotes
dedication to quality, increases
                                             services, the quality and usefulness of its documents, and the
industry’s access to and                     reasonableness of their cost.
participation in foreign research    !       NTIS and the Department had serious procurement-related
and development, and encourages
                                             deficiencies. While conducting our evaluation, we discovered major
the adoption of global standards.
                                             deficiencies in procurement practices related to NTIS acquisitions;
   National Institute of                     as a result, we initiated a separate review to address those issues
Standards and Technology.
                                             (see page 59 and September 1996 issue, page 64).
NIST aids U.S. industry through
research and services, contributes   !       NTIS has benefitted from improvements in its internal
to public health and safety, and             operations. During the past five years, the agency has adopted a
supports the U.S. scientific and
                                             more businesslike atmosphere, established an improved integrated
engineering research
                                             accounting and order processing system, and received fewer
communities. It creates and
maintains national standards of              customer complaints. Largely because of these factors, NTIS was
measurement and is developing                selected as a candidate for conversion to a performance based
computer security standards for              organization. The PBO concept is designed to provide certain
the federal government.                      agencies with greater flexibility in procurement and more control
   National Technical Infor-                 over their finances and personnel in exchange for stricter account-
mation Service. NTIS is a self-              ability for performance. Although the agency’s mission appears to
supporting agency that actively              fit the concept, organizational deficiencies we identified suggest that
collects and organizes technical,            more improvements are necessary before it can handle the
engineering, and business-related            challenges of becoming a PBO.
information generated by U.S. and
foreign governments and makes it     !       Problems with CyberFile offer lessons for NTIS. Through its
available for commercial use by              expansionary $22 million CyberFile project, NTIS attempted to
the private sector.                          develop for the Internal Revenue Service a system that would




                                                      - 58 -
                                                                         Technology Administration




        enable taxpayers with home computers to submit their tax returns
        electronically. This project, NTIS’s largest ever, was poorly
                                                                                          Technology
        managed and widely criticized. NTIS has undertaken a number of                   Administration
        other expansionary activities, based on its interpretation of its
        legislative authority, a push to generate new revenues, and a general
        desire to expand. We are concerned that some of these activities          NIST                    NTIS

        may be outside NTIS’s authority and distract the agency from its
        primary duties. The agency needs to develop sound selection criteria
        for evaluating proposed projects and ensure that adequate time is                 Technology
                                                                                            Policy
        afforded to effectively plan, manage, and complete any undertaking.
!       Interagency agreements were not cleared through the
        Department’s General Counsel. None of NTIS’s contract-type
        vehicles we examined had been reviewed for legal sufficiency by the
        Office of General Counsel, as required by departmental procedures.
        Our observations on these agreements were discussed in detail in
        another report (see below).
!       Efforts to consolidate and relocate NTIS operations have been
        slow and costly. Four years of attempts by NTIS to consolidate its
        operations have been hampered by (1) the slow pace of the General
        Services Administration review process, (2) NTIS’s failure to
        adequately justify its requirement to be near a Metrorail station, and
        (3) the Department’s “hands-off” attitude toward NTIS’s lease
        acquisition efforts. We believe that, given the time and effort
        invested in this endeavor, agency managers should immediately take
        actions to better justify the proposed move and, if this fails, pursue
        a less costly alternative.
         The Technology Administration agreed with our observations and
recommendations, and the actions it has taken and proposed meet the intent
of our recommendations. (Office of Inspections and Program Evaluations:
IPE-8497)

NTIS CyberFile Project Plagued by
Management and Procurement Problems
        During a program evaluation of the operational effectiveness of
NTIS (see page 58), the OIG became concerned about certain deficient
programmatic and procurement practices related to the development of
CyberFile, an on-line tax-filing system that the agency was developing for
IRS through an interagency agreement. As a result of these concerns, we
began a separate inspection of NTIS’s CyberFile-related program
management and procurement activities.


                                                        - 59 -
Technology Administration




                               NTIS’s procurement authority is limited to contract awards under
                      $50,000 and delivery orders issued under existing contracts. NTIS relied on
                      the Department’s procurement organization for much of its procurement and
                      contracting support until November 1995, when this responsibility was
                      transferred to NIST. Similarly, NTIS has only a limited technical staff in the
                      group that is responsible for CyberFile development, and these staff are
                      generally hired for marketing activities, not for computer systems
                      development work. As a result, CyberFile development was contracted to
                      outside suppliers.
                              Our inspection disclosed that NTIS’s programmatic and procure-
                      ment planning for CyberFile was grossly inadequate and that its use of
                      delivery order contracts and interagency agreements was highly questionable
                      in concept, and circumvented federal statutes and regulations in practice.
                      Specifically, because of its inadequate planning, NTIS:
                      !       Underestimated the cost and resources required to develop
                              CyberFile, then used sole-source Small Business Administration
                              8(a) contracts, which were inadequate to handle the required volume
                              of effort, and which in turn exceeded the $3 million threshold for
                              such contracts.
                      !       Overrelied on support contractors for CyberFile development
                              without maintaining adequate control over their activities.
                      !       Failed to pass along critical IRS contract specifications to its
                              contractor and subcontractors, resulting in a system that did not
                              meet IRS security and delivery requirements.
                      !       Issued work authorizations in advance of contract agreements
                              defining requirements, which resulted in the initial estimated
                              $1.4 million software development cost rising to over $7.8 million.
                      !       Used the prime development and systems integration 8(a) contract
                              to funnel much of the CyberFile development work to subcon-
                              tractors that were ineligible under the 8(a) program.
                      !       Used a complex web of interagency agreements to avoid federal
                              competition requirements and departmental oversight, thereby
                              increasing government costs by about $875,000.
                      !       Violated federal regulations on delivery order contracts and
                              interagency agreements by failing to conduct market surveys or
                              price analyses, and improperly entered into and poorly managed
                              interagency agreements.




                                       - 60 -
                                                                           Technology Administration




!       Inappropriately charged a cost-plus-a-percentage-of-cost fee to
        other federal agencies, a practice that maximized its fees but
        fostered inefficient procurement practices.
!       Systematically avoided Office of General Counsel review of all
        delivery orders and interagency agreements.
         In responding to our report, NTIS acknowledged that many
procurement mistakes were made, and generally agreed with our
recommendations. However, the agency questioned whether some of the
mistakes that we highlighted were as serious as characterized. NTIS
asserted that (1) the cost overrun in software development was the result of
a conscious decision to prioritize the project’s development schedule, (2)
CyberFile had the ability to eventually meet IRS’s security requirements,
and (3) IRS was kept fully informed of the cost risks. (Office of Inspections
and Program Evaluations: IPE-9364)

NIST’s Capital Improvements Facilities Program
Needs Management Attention
        NIST’s Capital Improvements Facilities Program, designed to
upgrade and expand its research facilities, was originally projected to cost
$540 million and require 10 years (1993-2002) to complete. The CIFP
includes renovations of existing laboratory and office facilities, as well as
the construction of new facilities at NIST’s Gaithersburg, Maryland, and
Boulder, Colorado, sites.
          Since FY 1993, NIST has received $291 million in construction
appropriations, although $121 million of that has since been rescinded by
the Congress. The OIG conducted a comprehensive four-part review of the
CIFP. We previously reported on NIST’s proposed construction of an
Advanced Measurement Laboratory in Boulder (see March 1996 issue, page
59), its decision to lease an office building in Gaithersburg (see September
1996 issue, page 56), and its inappropriate obligation of nearly $32 million
(see September 1996 issue, page 57).
       In our fourth report, issued during this semiannual period, we made
a number of observations about the overall management of the CIFP:
!       NIST has effectively managed many CIFP challenges. Many
        aspects of this complex program have been handled well. NIST has
        demonstrated a pressing need for certain facilities renovation and
        construction, and has translated its needs into specific plans that
        should remedy facility weaknesses and produce energy-related
        savings and improvements in productivity and performance.


                                                         - 61 -
Technology Administration




                      !       NIST is revising the CIFP without making some key
                              adjustments. NIST is revising its CIFP to reflect changes in
                              program direction and other circumstances, but we are concerned
                              that its revised plan may contain over $200 million in unjustified or
                              inadequately explained program elements. Moreover, NIST and the
                              Department recognize that because of inflation and added elements,
                              the CIFP will cost at least $940 million and take at least four years
                              longer than originally projected. We cannot overemphasize the need
                              for NIST and the Department to have the most accurate, defensible,
                              and fiscally responsible CIFP possible.
                      !       NIST should abandon plans to award a single omnibus con-
                              struction contract. NIST initially established a construction
                              strategy for the CIFP that allowed for the award of a single omnibus
                              task order construction contract that could extend for as long as 10
                              years and cost as much as $480 million. The initial award to a
                              single contractor would be competitive, but all successive task
                              orders could be on a sole-source basis without competition. We
                              believe that any proposed NIST omnibus construction contract
                              should be awarded to multiple suppliers, thereby ensuring
                              competition for task orders. NIST canceled the proposed contract
                              because of a lack of funding, but we urge that any future
                              solicitations of this type be modified to address our concerns.
                      !       NIST should try to avoid “phased” construction of the
                              Gaithersburg AML. NIST has justified construction of the
                              Gaithersburg AML, consisting of five connected buildings for
                              conducting “cutting edge” research. Based on NIST’s figures, we
                              estimate that if contracted in a “unified” manner and begun in FY
                              1998, the AML can be built in 42 months for an estimated cost of
                              $191 million. NIST, however, was planning to build the AML in
                              phases because it believes that the funding for unified construction
                              will not be available up front. Unfortunately, phased construction
                              greatly reduces efficiency and has other costly disadvantages. We
                              endorse NIST’s ongoing efforts to work with the Department,
                              OMB, and the Congress to find a funding strategy that will allow
                              unified construction of the AML.
                               NIST generally agreed with our conclusions, recognizing that the
                      projected cost of the CIFP has escalated dramatically and that it needs to
                      reevaluate its facility needs and revise the program. It also agreed that
                      phased construction of the AML presents significant disadvantages and that
                      our concerns about the omnibus construction contract should be addressed



                                      - 62 -
                                                                          Technology Administration




in any future solicitation. NIST did not, however, agree to remove elements
from the CIFP plan that we identified as unjustified. We reiterate the need
for a reevaluation to produce a realistic CIFP. (Office of Inspections and
Program Evaluations: IPE-8377(3))

NIST and the Department Need to Resolve
Issue of Excess Leased Space
         In August 1996, we issued an inspection report on NIST’s leasing
of an office building in Gaithersburg, Maryland (see September 1996 issue,
page 56). In that report, we observed that: (1) the leased building was not
being used to support NIST’s construction program as originally intended;
(2) NIST could, at best, justify only about one-third of the building based on
a minor office overcrowding problem on its main campus; and (3) the
continued long-term leasing of this building represented a luxury that NIST
could not afford given its other facility priorities and today’s tight budget
environment. We recommended that the Department take the lead in
expeditiously liquidating/subleasing the excess space.
         The Department disagreed with our recommendation, stating that
there was little available space on the campus for personnel to backfill and
that it would not be cost-effective to move employees back to the main
campus until more space was available there. The Department did not
anticipate having sufficient available space until 1998.
          Because much of NIST’s work is done in laboratory and other
scientific facilities, the agency needs less office space per person than it
would under the standard used by the Department. This is reflected in
NIST’s self-imposed standard for allocating office space per person, which
is slightly less than the Department’s standard. Based on NIST’s standard,
we maintain that the agency now has sufficient space on its main campus to
house two-thirds of the occupants of the leased building.
          At a cost of $3 million per year and a total potential cost of from
$31 to $47 million, the leased building is not a wise use of scarce resources.
The savings, which we estimated to be at least $16.3 million, represent
funds that could go to higher priority projects, especially those related to
health and safety upgrades. We have agreed with NIST that final resolution
of this issue will be deferred until NIST, in collaboration with the
Department and our office, finalizes its reassessment of its facility needs.
We will closely monitor NIST’s facility plans to ensure that the agency
focuses on the most cost-effective alternatives and includes a definitive,
justifiable plan for liquidating the excess leased space. (Office of
Inspections and Program Evaluations)

                                                         - 63 -
Technology Administration




                      Accounting System Surveys of NIST Awardees
                      Help Ensure Proper Handling of Federal Funds
                              As noted in earlier issues of this report, the OIG has been
                      performing a series of accounting system surveys of first-time recipients of
                      financial assistance awards under NIST's Manufacturing Extension
                      Partnership and Advanced Technology programs (see, for example,
                      September 1996 issue, page 60). Rather than wait to undertake
                      comprehensive audits covering several years, we conduct brief surveys to
                      make preliminary assessments of whether selected recipients are (1)
                      claiming costs that are reasonable, allowable, and allocable, and (2)
                      complying with the financial terms and conditions of their awards.
                      Manufacturing Extension Partnership Program
                               The three surveys completed during this semiannual period covered
                      projects having total estimated costs for the two- to three-year award
                      periods exceeding $7.3 million, with a federal share that could ultimately be
                      as much as $3.7 million. As in prior surveys, we identified weaknesses in
                      the recipients' financial management and accounting systems, most
                      commonly the failure to supply or document matching share funds, to
                      properly claim and document only allowable costs, and to implement
                      adequate administrative policies and procedures.
                              Almost without exception, the recipients concurred with our
                      findings and agreed to take prompt corrective actions. Identifying these
                      weaknesses early in the award periods helps prevent future problems and
                      avoid questioned costs in later audits. (Denver Regional Office of Audits:
                      DEN-9336-7-0001, DEN-9337-7-0001, and DEN-9492-7-0001)

                      Advanced Technology Program
                               During this period, we reported on nine audits covering ATP
                      projects having total estimated costs for the two- to three-year award
                      periods of more than $25.1 million, with a federal share potentially as high
                      as $13.6 million. Seven of these audits identified weaknesses in the
                      recipients' financial management and accounting systems, most commonly
                      the failure to adequately account for the federal funds, to properly claim and
                      document only allowable costs, and to implement adequate policies and
                      procedures. Questioned costs and recommended funds to be put to better use
                      on these seven audits exceeded $950,000.




                                       - 64 -
                                                                          Technology Administration




         The other two audits demonstrated the value of using accounting
system surveys for early identification and resolution of audit issues. As a
result of undergoing early surveys, both recipients had adequately accounted
for the federal funds, had equaled or exceeded their matching share
requirements, and had no costs questioned. (Denver Regional Office of
Audits: DEN-8731-7-0001, DEN-8825-7-0001, DEN-8845-7-0001, DEN-
9003-7-0001, DEN-9048-7-0001, DEN-9133-7-0001, DEN-9134-7-0001,
DEN-9207-7-0001, and DEN-9260-7-0001)

OIG Develops Audit Guidelines
for Advanced Technology Program
         The statutory authority for the Advanced Technology Program
requires NIST to establish procedures regarding financial reporting and
auditing to ensure that cooperative agreements are used for their specified
purposes. In order to assist the agency, during this reporting period, the OIG
developed program-specific guidelines for independent public accountants
conducting audits of ATP cooperative agreements with joint ventures and
single companies.
        Federal legislation requires that all audits of financial assistance
recipients be performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. The ATP audit
requirements are met by conducting an audit of the ATP financial statement,
“Schedule of Fund Sources and Project Costs,” and an attestation of
management’s assertions regarding compliance with laws and regulations.
Because of different requirements for joint venture participants and single
companies, slightly different guidelines are used for each type of recipient.
         The report package prepared in accordance with these guidelines is
submitted to both the NIST Grants Office and the OIG. The opinions on the
program financial statement and management’s assertions regarding
compliance will be used as a tool by program managers and grant officials
in meeting their responsibilities for ensuring that federal funds are spent for
their intended purposes and in accordance with laws and regulations. The
OIG will review the reports for technical accuracy and audit findings.
(Atlanta Regional Office of Audits)




                                                          - 65 -
Technology Administration




                      Audit of TA’s FY 1995 and FY 1996
                      Combined Financial Statements
                               The OIG contracted with a CPA firm to conduct an audit of TA’s
                      FY 1995 Statement of Financial Position and FY 1996 Financial
                      Statements. In the firm’s opinion, the financial statements present fairly
                      TA’s financial position as of September 30, 1996 and 1995, and the results
                      of its operations for the year ended September 30, 1996, in conformity with
                      federal accounting principles and standards. The firm did not identify any
                      material weaknesses or reportable conditions during its review of TA’s
                      internal control structure. (Financial Statements Contract Audit Division:
                      FSC-8835-7-0001)

                      Audit of NTIS’s FY 1996 Financial Statements
                               We contracted with a CPA firm to conduct an audit of NTIS’s
                      financial statements for the year ended September 30, 1996. The firm
                      expressed a qualified opinion on the statement of financial position, and
                      disclaimed an opinion on the statements of operations and changes in net
                      position and cash flows for the year then ended. The auditors expressed
                      these opinions because (1) the response to their request for confirmation of a
                      $1.93 million account receivable indicated that the customer could not
                      validate $7.0 million in obligations for services performed by NTIS sub-
                      contractors under an interagency agreement and was unable to determine
                      whether amounts were due to NTIS or a refund was owed, and (2) at the
                      instruction of management, the auditors did not review evidence supporting
                      amounts reflected in the inventory records.
                               In its review of NTIS’s internal control structure, the firm identified
                      five reportable conditions, the first of which is a material weakness. To
                      correct these conditions, NTIS needs to:
                      !       Improve controls over inventory.
                      !       Properly prepare and review reconciliations.
                      !       Document standard operating procedures for certain functions and
                              unusual transactions.
                      !       Improve controls to ensure that obligations are recorded on a timely
                              basis.
                      !       Consistently apply policies regarding the recording of fees,
                              revenues, and advances.




                                       - 66 -
                                                                          Technology Administration




         With one exception, the firm’s tests of compliance with laws and
regulations disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards. The exception was that the
General Accounting Office report Tax Systems Modernization: Cyberfile
Was Poorly Planned and Managed, issued in August 1996, stated that:
“NTIS . . . violated applicable procurement laws and regulations in
implementing Cyberfile” (see page 59).
         These audit results are in marked contrast with the FY 1995 audit,
in which NTIS received an unqualified opinion and no reportable conditions
were identified. The results clearly indicate deficiencies in NTIS’s internal
control structure. We encourage NTIS management to make concerted
efforts to improve the internal control structure as soon as possible to allow
for the preparation of more reliable financial statements for FY 1997.
(Financial Statements Contract Audit Division: FSC-8843-7-0001)

Audit of NIST’s FY 1996
Combined Financial Statements
         After reviewing NIST’s combined financial statements for FY 1996,
a contractor CPA firm issued an unqualified opinion. The firm also
reviewed NIST’s internal control structure and noted no material weak-
nesses. However, it did identify two reportable conditions that were
observed in previous audits but were not fully addressed, and recommended
the following actions to correct them:
!       Appoint a Chief Financial Officer.
!       Involve financial management in asset acquisition decisions.
         NIST concurred with the auditors’ findings and recommendations.
We commend NIST management on its efforts in improving its internal
control structure. Successful implementation of the Commerce
Administrative Management System will require continued management
attention. The system will be instrumental in the continued improvement of
NIST’s internal control structure. We believe that the consolidation of the
Comptroller’s Office, Budget, and Financial Systems Division under an
Acting CFO is a positive step in NIST’s efforts to improve its financial
management. (Financial Statements Contract Audit Division: FSC-8840-7-
0001)




                                                         - 67 -
Technology Administration




                      Joint Investigation Discloses
                      Improper Billings on NIST Contract
                              A joint investigation by the OIG, the Federal Bureau of
                      Investigation, the Defense Criminal Investigative Service, and the Naval
                      Investigative Service revealed that a NIST contractor had improperly billed
                      the government for costs associated with lobbying the Congress to retain a
                      Department of Defense program under which the NIST contract was
                      awarded. The investigation established that the contractor, once it learned of
                      the Navy’s decision to cancel one of the primary programs funding the
                      contract, paid several thousand dollars in consulting fees to a former high-
                      ranking Navy official to lobby Members of Congress in an attempt to get the
                      decision reversed. These fees were then billed to NIST without disclosing
                      the precise nature of the activities for which the contract was being charged.
                               The matter was referred to the U.S. Attorney’s Office for the
                      Eastern District of Virginia, and in October 1996, the contractor entered
                      into a civil settlement under which it agreed to pay the government $21,000
                      to resolve any potential claims for False Claims Act damages based on the
                      NIST contract.
                               The investigation also disclosed that a senior NIST official who had
                      served as the head of the source selection board and the contracting officer’s
                      technical representative for the contract had misspent hundreds of thousands
                      of dollars in appropriated funds received from the Navy under the program
                      for office renovations, computer system upgrades, and the purchase of office
                      furniture and computers. The official resigned from government service
                      during the investigation. (Silver Spring Field Office of Investigations)




                                       - 68 -
                     Departmental Management



Financial Statement Audits
                                                                                             Chief Financial
         The OIG is responsible for the financial statement audit of the                         Officer &
                                                                                           Assistant Secretary
                                                                                            for Administration
Department of Commerce in accordance with provisions of the CFO Act, as
expanded by GMRA. During this semiannual period, the Department pre-
pared its first Consolidated Financial Statement, on which we disclaimed an         Budget,                 Security
                                                                                 Management                 & Admin.
opinion. This was mainly due to the disclaimer of opinion on the financial       & Information              Services

statements of NOAA, which is by far the largest accounting entity in
Commerce. Moreover, the report on internal control structure included 11
                                                                                  Executive
material weaknesses that were deemed significant to the Department as a           Budgeting
                                                                                   & Asst.
                                                                                                           Financial
                                                                                                          Management
whole (see page 71).                                                             Management


         In addition to reporting on the Department’s Consolidated Financial
                                                                                   Systems                  Human
Statement, we issued an individual audit report for each bureau. Unqualified      & Telecom.
                                                                                 Management
                                                                                                           Resources
                                                                                                          Management
opinions were received by BEA, ESA, MBDA, NIST, NTIA, PTO, TA, and
the Department’s Working Capital Fund. Census, NTIS, and the
Department’s Salaries and Expenses Fund received qualified opinions on            Acquisition                 Civil
                                                                                 Management                  Rights
their balance sheets with disclaimers on their income statements.
Disclaimers of opinion were received by BXA, EDA, ITA, and NOAA.
        While EDA received a disclaimer of opinion on its financial
statements, progress was made in addressing internal control weaknesses, as
only 4 material weaknesses and 5 reportable conditions were reported, down
from 10 weaknesses and 11 conditions in FY 1995. Moreover, EDA has
agreed to hire a CFO. ITA received a disclaimer on its statements, with 6
material weaknesses and 4 reportable conditions, but also has agreed to hire
a CFO. NOAA also received a disclaimer of opinion on its statements, with
11 material weaknesses and 10 reportable conditions. NOAA has agreed to
hire additional staff at its headquarters and its Administrative Support
Centers. In addition, it plans to include financial management criteria in the
performance plans of its upper level managers.
        Although substantial progress has been made, it is unlikely that the
Department will meet its commitment to receive an unqualified opinion on
its Consolidated Financial Statement for FY 1997. Although EDA, ITA, and
NOAA have begun to take steps to remedy their internal control
deficiencies, due to the bureaus’ respective sizes and the nature of the
deficiencies, added attention is warranted.
         We will work closely with the Department and the bureaus to ensure
that their corrective action plans properly address the reported internal
control weaknesses. In addition, we will assess the Department’s and the
bureaus’ progress in addressing the requirements of the Government
Performance and Results Act (GPRA).



                                                        - 69 -
Departmental Management




               Entity      FY 1992            FY 1993           FY 1994           FY 1995        FY 1996

          Department                                                                        Disclaimer

          BEA            Survey          Balance Sheet       Balance Sheet    Unqualified   Unqualified
                                         Disclaimer          Unqualified

          BXA                                                Survey           Disclaimer    Disclaimer

          Census         Survey          Limited Scope       Disclaimer       Balance       Balance Sheet
                                                                              Sheet         Qualified; Income
                                                                              Qualified     Statement Disclaimer

          EDA            Limited         Balance Sheet       Disclaimer       Disclaimer    Disclaimer
                         Scope           Disclaimer

          ESA            Survey          Balance Sheet       Balance Sheet    Unqualified   Unqualified
                                         Disclaimer          Unqualified

          G&B                            Disclaimer                           *

          ITA            Survey          Limited Scope       Disclaimer       Disclaimer    Disclaimer

          MBDA                                               Survey           Balance       Unqualified
                                                                              Sheet
                                                                              Unqualified

          NIST           Limited         Balance Sheet       Unqualified      Unqualified   Unqualified
                         Scope           Qualified

          NOAA           Survey          **                  Disclaimer       Disclaimer    Disclaimer

          NTIA           Survey          Balance Sheet       Unqualified      Unqualified   Unqualified
                                         Unqualified

          NTIS           Unqualified     Unqualified         Unqualified      Unqualified   Balance Sheet
                                                                                            Qualified; Income
                                                                                            Statement Disclaimer

          PTO            Survey          Balance Sheet       Unqualified      Unqualified   Unqualified
                                         Unqualified

          S&E                                                                 Disclaimer    Balance Sheet
                                                                                            Qualified; Income
                                                                                            Statement Disclaimer

          TA                                                                  Balance       Unqualified
                                                                              Sheet
                                                                              Unqualified

          WCF            Survey          Balance Sheet       Balance Sheet    Unqualified   Unqualified
                                         Disclaimer          Unqualified



*An audit was attempted, but could not be performed (see page 76).
**In FY 1993, we performed balance sheet audits of two NOAA entitiesC the Coastal Zone
Management Revolving Fund and the Fishing Vessel Obligation Guarantee Program.



                                                                     - 70 -
                                                                        Departmental Management



        To meet our CFO Act responsibilities, we implemented an incre-
mental audit approach that emphasized early detection and correction of          Definitions:
major internal control problems. The chart on the previous page shows the        A financial statement audit
progress made—from survey to limited scope to full scope audits, with            provides one of the following
disclaimer versus qualified versus unqualified opinions—in the Depart-           opinions:
ment’s financial statement audits.
                                                                                 Unqualified—the financial
                                                                                 statements present fairly, in all
Audit of the Department’s FY 1996                                                material respects, the entity’s
Consolidated Financial Statements                                                financial position and results of
                                                                                 operations.
        The OIG performed an audit of the Department’s Consolidated              Qualified—except for the effects
Financial Statements as of and for the year ended September 30, 1996. This       of the matter(s) to which the
was the first time the Department has prepared consolidated financial            qualification relates, the financial
statements under the requirements of the CFO Act, as expanded by GMRA.           statements present fairly, in all
                                                                                 material respects, the entity’s
         We were unable to express an opinion on the financial statements        financial position and results of
because of material deficiencies in accounting policies, practices, internal     operations.
controls, data, and automated systems. Further, the Department’s Office of
                                                                                 Adverse—the financial statements
General Counsel did not provide the required legal representation letter,        do not present fairly the entity’s
resulting in a scope limitation for the consolidated audit.                      financial position or results of
         We identified 11 material weaknesses in the Department’s internal       operations.
control structures. Until the material weaknesses noted in this report and in    Disclaimer—the auditor does not
the individual bureau reports on internal control structure are corrected, and   express an opinion on the
issues regarding the legal representation letter are resolved, the Department    financial statements.
will continue to receive a disclaimer of opinion. Specific recommendations
are included in the bureau reports to address their material weaknesses. In
addition, the following recommendations need to be addressed at the
Department level:
!       The Department must tightly manage the development and
        implementation of the Commerce Administrative Management
        System. Several concerns have been raised about the development
        of the integrated Department-wide system, including
        implementation delays, tracking of costs, and the year 2000 issue.
!       The Department should assist the three bureaus that have yet to fill
        their Chief Financial Officer positions. The Department should also
        focus on finalizing the process to fill its CFO position.
!       The Department’s CFO should work closely with the bureaus to
        prioritize the actions to be taken on internal control weaknesses.
!       Instructions for completing FY 1997 financial statements should be
        prepared and distributed as soon as possible. Periodic meetings
        should be held to assess the bureaus’ progress on the statements.


                                                         - 71 -
Departmental Management



                    !       The Department’s CFO should work with bureau management to
                            ensure adherence to OMB guidance and GPRA requirements for
                            preparing meaningful overviews. The CFO should also improve the
                            overview presented with the consolidated statements.
                    !       The Department’s CFO must work with the General Counsel to
                            ensure that adequate legal representation letters are obtained at the
                            Department and bureau levels.
                             Although the Department has made substantial progress in its
                    bureau financial statement audits, additional efforts are needed to meet
                    GMRA’s requirements for audited agency-wide financial statements. Some
                    of the Department’s bureaus have received unqualified opinions on their
                    financial statements or have progressively improved their internal control
                    structure. However, deficiencies in three of the more significant bureaus—
                    EDA, ITA, and NOAA—merit added departmental attention.
                             The importance of the Department’s progress in preparing an
                    accurate, reliable, and timely financial statement package is heightened by
                    recent legislation relating to the improvement of financial management and
                    by continuing congressional interest in its programs. The Department’s
                    overview will give management, the Congress, and others an indication of
                    whether its programs are meeting its goals, and what resources are required
                    to provide services. GPRA expands the use of performance information and
                    directly involves managers by requiring them to develop a strategic plan,
                    identify performance indicators and plans, and issue annual performance
                    reports. The Department needs to take corrective actions to ensure that its
                    overview and financial statements properly reflect its operations. (Financial
                    Statements Audit Division: FSD-9355-7-0001)

                    Employee Operated Private Business
                    in Violation of Conflict Laws
                             A mid-level employee in the Office of the Secretary retired from
                    federal service in the face of his proposed removal after an OIG inves-
                    tigation revealed that he had for many years been operating a business
                    representing federal employees in personnel matters before other federal
                    agencies. We found that the employee frequently conducted his private
                    business while on duty at the Department, and that he had received at least
                    $40,000 in client fees over a five- or six-year period. The matter was
                    referred to the U.S. Attorney’s Office for the District of Maryland, which
                    declined criminal prosecution in favor of administrative action.
                    (Washington Field Office of Investigations)



                                     - 72 -
                                                                           Departmental Management




Office of Acquisition Policy and Programs
Needs to Reevaluate Its Mission and Organization
         The OIG recently completed a review of the Office of Acquisition
Policy and Programs’ (OAPP) management and staffing. OAPP is part of
the Department’s Office of Acquisition Management, which is responsible
for the implementation of procurement laws, regulations, policies, and
procedures within Commerce.
         Our review disclosed that in response to the National Performance
Review, deficit reduction initiatives, and acquisition reform legislation,
OAPP significantly streamlined the Department’s acquisition process.
However, in doing so, OAPP also eliminated or reduced its participation in
certain key acquisition management functions and, as a result, abdicated its
responsibility for review and oversight of departmental acquisitions.
Without adequate departmental oversight, there is an increased risk that
departmental acquisitions will be conducted improperly and inefficiently.
        We recommended that the Department:
!       Take immediate action to resume and strengthen OAPP’s role in,
        and responsibility for, overseeing the acquisition programs within
        the Department.
!       Take action to ensure that OAPP’s mission statement, organi-
        zational structure, and staff responsibilities and resources are
        consistent with the oversight and policy function.
!       Immediately implement an independent assessment of bureau
        procurement offices to determine whether acquisitions were made in
        accordance with applicable regulations, policies, and procedures,
        and to assess the offices’ efficiency and effectiveness, the soundness
        of business judgments made by contracting offices, and the
        adequacy of management controls.
!       Examine the staffing structure of OAPP to determine the optimum
        utilization of resources.
         In response to our draft report, the Department agreed with the
purpose and mission of OAPP as outlined in our report and with our
contention that actions taken to implement the National Performance Review
and recent legislation should be made wisely and incrementally. However,
our specific recommendations were not addressed. Since we issued our final
report, the Department has submitted a proposed audit action plan, which
we are reviewing. (Economic Development Division: EDD-8279-7-0001)



                                                         - 73 -
Departmental Management




                    Commerce Employees Met Overtime Criteria, but
                    Approving Officials Need to Document Decisions
                             Under the Omnibus Consolidated Appropriations Act for FY 1997,
                    the OIG of each federal department is required to conduct an audit of the use
                    of administratively uncontrollable overtime (AUO) and report its findings to
                    the Congress and the Office of Personnel Management. Agency heads are
                    authorized to pay premium pay for AUO when three criteria are met: (1) an
                    employee’s hours cannot be controlled administratively, (2) the employee’s
                    position requires substantial amounts of irregular, unscheduled overtime
                    duty, and (3) the employee is responsible for recognizing, without super-
                    vision, circumstances that require him or her to remain on duty.
                            Premium pay is to be determined by the agency head as an
                    appropriate percentage—between 10 and 25—of the employee’s basic pay,
                    depending on the average number of weekly hours of overtime. Under the
                    Department’s Pay Handbook, officials who are authorized to approve AUO
                    are responsible for annually assessing work requirements and reviewing
                    records of overtime worked, determining the rate of premium pay to be paid,
                    and designating who will receive it.
                             The OIG audit found that all Commerce Department AUO
                    payments for the year ending October 12, 1996, were made to 55 NOAA
                    employees, who received a total of about $228,000. We selected for detailed
                    review the 39 employees who received AUO payments during the pay period
                    ending on October 12. We found that all 39 met the criteria for receiving
                    such payments. However, we also found that officials responsible for
                    authorizing AUO did not maintain and review records of overtime worked to
                    determine the rate payable, as required by the Pay Handbook. In addition,
                    since records of overtime worked were not maintained, NOAA could not
                    conduct the required cost-effectiveness determinations. Therefore, we were
                    unable to determine whether employees were paid at the appropriate rate.
                            We recommended that the Department and NOAA ensure that units
                    authorizing AUO for employees (1) maintain and review records of overtime
                    worked, determine the average weekly hours of irregular or occasional
                    overtime, assess work requirements, and determine the proper rate of
                    premium pay from the Pay Handbook, and (2) determine if payment for
                    AUO is cost-effective compared to payment for regular overtime. NOAA
                    agreed with our findings and said it would implement our recommendations.
                    (Economic Development Division: EDD-9290-7-0001)




                                                    - 74 -
                                                                        Departmental Management



Audits of Working Capital Fund’s and Salaries and
Expenses Fund’s FY 1996 Financial Statements
        The OIG performed audits of the General Administration’s
Working Capital Fund (WCF) and Salaries and Expenses Fund (S&E)
financial statements as of and for the year ended September 30, 1996. This
was the fourth audit of the WCF under the CFO Act, and the second audit
of the S&E under GMRA.
         We issued an unqualified opinion on the WCF’s financial
statements for FY 1996. However, we issued a qualified opinion on the
S&E’s Statement of Financial Position as of September 30, 1996, and
disclaimed an opinion on its Statement of Operations and Changes in Net
Position for the year then ended. This is an improvement over the FY 1995
audit, in which the S&E received a disclaimer of opinion on its Statement of
Financial Position.
         The two funds are operated by one management team under the
same internal control structure and procedures for compliance. Thus, our
reports on internal control structure and on compliance with laws and
regulations apply to both funds. Our internal control review of the funds for
FY 1996 disclosed seven reportable conditions, of which three were
considered to be material weaknesses. It should be noted that the majority of
the findings were repeat conditions and that one matter was raised from a
reportable condition to a material weakness from the prior year’s report.
        The material weaknesses related to the need for management to
improve controls over inventory for the WCF, procedures to reconcile
Advances and Reimbursable obligation billings to actual costs for the S&E,
and controls over capital assets for both the WCF and S&E. Two of the
four reportable conditions identified the need to improve both funds’
procedures over accounts payable and procedures for the liquidation of
undelivered orders. The other two conditions addressed the need to
strengthen the basis for cost allocation rates and supporting documentation
for the WCF and to update or establish standard operating procedures for
both the WCF and S&E to ensure proper performance of assigned duties.
         Although progress has been made to improve the quality,
usefulness, and timeliness of annual financial and performance reporting,
significant internal control matters remain to be addressed by both funds. It
should be noted that the S&E only submitted a draft corrective action plan
during March 1997 for the findings and recommendations in its FY 1995
audit. (Financial Statements Audit Division: FSD-8873-7-0001)




                                                        - 75 -
Departmental Management



                    Audit of the Gifts and Bequests Trust Fund’s
                    FY 1995 Principal Statements
                            The OIG undertook an audit of the General Administration’s Gifts
                    and Bequests (G&B) Trust Fund’s Principal Statements as of September 30,
                    1995. This was our second CFO Act audit of the fund’s principal
                    statements. The fund was established to account for gifts and bequests that
                    the Secretary is authorized to accept under federal law.
                             In FY 1994 we were unable to complete the audit of the fund’s
                    principal statements for the year ended September 30, 1993, and accord-
                    ingly, disclaimed an opinion on the principal statements due to scope
                    limitations (see September 1994 issue, page 62). We did not perform an
                    audit of the fund’s principal statements for the year ended September 30,
                    1994, because the Department’s bureaus had not had sufficient time to
                    implement our recommendations. However, we did contact each of the 13
                    bureaus to assess whether corrective actions had been taken to allow for an
                    audit of the fund, and confirmed that they had not.
                             We again contacted the bureaus as part of a preliminary review for
                    our FY 1995 audit, and determined that little or no improvement had been
                    made in the accounting for gifts and bequests. Therefore, we deemed it
                    inefficient to perform an audit of the fund’s principal statements for the year
                    ended September 30, 1995.
                             During our preliminary review, we identified several reportable
                    conditions, including the need to improve coordination and oversight of the
                    fund, controls over the accounting for G&B transactions, and preparation of
                    the financial statement package. We also noted that deposits should be made
                    under the G&B appropriation, and subsidiary ledgers should be maintained.
                    Shortly after the end of the semiannual period, the Department submitted,
                    and we concurred in, an audit action plan for correcting the deficiencies.
                    (Financial Statements Audit Division: FSD-8707-7-0001)

                    Processed Preaward/Postaward Contract Audits
                             The Department's bureaus require many types of supplies and
                    services to meet their mission needs. Procurement offices must help the
                    bureaus obtain the best products or services at the best prices. To that end,
                    preaward audits are routinely requested, through the OIG, to assist the
                    contracting officer in evaluating an offeror's proposed costs, accounting
                    system, financial capability, management ability, and technical competence.
                    These audits are usually performed by the Defense Contract Audit Agency
                    (DCAA).


                                     - 76 -
                                                                          Departmental Management



        In support of preaward contract audits, we:
!       Provide assistance in identifying the need for preaward audits,
        determine whether the data submitted in the audit package is
        adequate and complete, and ensure that technical evaluations are
        provided to the auditors, as needed.
!       Monitor the progress of the audits and discuss the audit scope,
        methodology, and results with the DCAA auditor.
!       Review the audit reports for completeness and compliance with the
        Department's requests.
!       Attend negotiations of procurements for major systems whenever the
        contracting officer requests our assistance.
         Postaward contract audits are required by the Federal Acquisition
Regulation. We coordinate and monitor the processing of the reports on these
audits, also generally conducted by DCAA. During the first half of FY
1997, 33 audit requests were received and processed by the OIG:
!       14 preaward audit requests with an audited value of $42,367,246.
!       3 postaward audit requests with an audited value of $2,006,357.
!       16 miscellaneous audit requests, including rate reviews and
        accounting system reviews.
        The number of processed audit reports issued totaled 14:
!       9 preaward audit reports cited $219,264 in potential funds to be put
        to better use.
!       3 postaward audit reports.
!       2 special audit reports.
         Recommendations made in 14 preaward contract audits were
resolved in contract negotiations, resulting in $364,763 in funds to be put to
better use. As of March 31, 1997, two preaward contract audits that were
issued before October 1996 had recommendations on which a final
management decision by the contracting officer had not been reported.
(Acquisitions Division)

Preaward Financial Assistance Screening
        We continue to work with the Office of Executive Budgeting and
Assistance Management, NOAA and NIST grant offices, and EDA
program offices to screen all of the Department’s grants, cooperative
agreements, and loan guarantees before award. Our screening



                                                         - 77 -
Departmental Management



                    (1) provides information on whether the applicant has unresolved audit
                    findings and recommendations on earlier awards, and (2) determines
                    whether a name check or investigation has revealed any negative history on
                    individuals or organizations connected with a proposed award.

                             During this period, we screened 552 proposed awards. On 19 of
                    these awards, we found major deficiencies affecting the ability of the
                    proposed recipients to maintain proper control over federal funds. On the
                    basis of information we provided, the Department delayed the awards,
                    inserted special conditions in the award agreement, or designated certain
                    recipients as “high risk” and required that the disbursement of federal funds
                    be on a cost reimbursement basis. (Office of Audits)



                                              Preaward Screening Results

                                      Results                 Number            Amount

                          Awards delayed                         4                 $648,141

                          Special award conditions               1                 $500,000

                          Cost reimbursement basis               14              $9,475,342



                    Indirect Cost Reviews
                             OMB has established a policy whereby a single federal agency is
                    responsible for the review, negotiation, and approval of indirect cost rates
                    for use on federal programs. Normally, the federal agency providing the
                    predominant direct funding is the cognizant agency. The Department has
                    authorized the OIG to negotiate indirect cost rates and review cost allocation
                    plans for each of its agencies. The OIG reviews and approves the
                    methodology and principles used in pooling indirect costs and establishing a
                    common base for distributing those costs to ensure that each federal, state,
                    and local program bears its fair share.
                             During this period, the OIG negotiated 37 indirect cost rate
                    agreements with nonprofit organizations and governmental agencies, and
                    reviewed and approved 22 cost allocation plans. We also provided technical
                    assistance to recipients of Commerce awards regarding the use of rates
                    established by other federal agencies and their applicability to our awards.
                    Further, we have worked closely with first time for-profit recipients of
                    Commerce awards to establish indirect cost proposals that are acceptable
                    for OIG review. (Atlanta Regional Office of Audits)

                                     - 78 -
                                                                        Departmental Management




Nonfederal Audit Activities
         In addition to OIG-performed audits, the Department's financial
assistance programs are audited by state and local government auditors and
by independent public accountants. OMB Circulars A-128, Audits of State
and Local Governments, and A-133, Audits of Institutions of Higher
Education and Other Non-Profit Institutions, set forth the requirements for
audits of those entities.
        During this semiannual period, we received 615 reports prepared by
nonfederal auditors. We also had 75 unprocessed reports from the last
semiannual period. For 348 of these reports, the Department is responsible
for monitoring compliance with the OMB circulars. The other reports are
from entities for which other federal agencies have oversight responsibility.
We examined 594 reports during this period to determine whether they
contained audit findings on any Department programs.

                       Report Category                 Number

            Pending (September 30, 1996)                        75

            Received                                          615

            Examined                                          594

            Pending (March 31, 1997)                            96


The following table shows a breakdown by bureau of the $285 million in
Commerce funds audited.


                     Bureau                   Funds
             EDA                                      $83,076,425
             ITA                                        5,995,358

             MBDA                                       2,730,137
             NOAA                                      86,676,726
             NTIA                                      11,516,748

             PTO                                         492,790
             TA                                        94,808,360

             Total                                 $285,296,544



                                                    - 79 -
Departmental Management




                             We identified a total of $25,745 in questioned costs and $189,461
                    in funds to be put to better use. In most reports, the Department's programs
                    were considered non-major, resulting in limited transaction and compliance
                    testing against laws, regulations, and grant terms and conditions by the
                    auditors. The eight reports with Commerce findings are listed in Appendix
                    B-1. (Atlanta Regional Office of Audits)

                    Audit Reports Unresolved for over Six Months
                             As of March 31, 1997, there was one financial statement audit
                    report with recommendations unresolved for more than six months. In that
                    report, General Administration’s Salaries and Expenses Fund Statement of
                    Financial Position as of September 30, 1995, FSD-8671-6-0001 (see
                    September 1996 issue, page 66), we were unable to issue an opinion on the
                    statement because the fund did not reconcile Advances from Others
                    transactions to the general ledger balance. The report also identified one
                    major internal control weakness and several reportable conditions. Shortly
                    after this semiannual period, the Department submitted an action plan,
                    which we are currently reviewing.




                                     - 80 -
                                                             Office of
                                                    Inspector General




                                                                    Telephone Numbers

Inspector General . . . . . . . . . . .     .   .   .   .   (202) 482-4661         Office of Audits . . . . . . . . . . . . . . . . . . .   (202) 482-1934
Congressional Liaison . . . . . . . .       .   .   .   .   (202) 482-3052         Office of Inspections and Program Eval.                  (202) 482-2754
Office of Compliance and Admin.             .   .   .   .   (202) 482-0231         Office of Systems Evaluation . . . . . . . . .           (202) 482-6186
Office of Counsel . . . . . . . . . . . .   .   .   .   .   (202) 482-5992         Office of Investigations . . . . . . . . . . . . .       (202) 482-0934

                           TDD Number . . . . .                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 482-5897
                           OIG HOTLINE:
                            Telephone . . . . . .              . . . . . . . . . . . . . . (202) 482-2495 or 1-800-424-5197
                            Commerce E-mail                    . . . . . . . . . . . . . . . . . . . . . . . OIG Hotline@OI@OIG
                            Internet . . . . . . . .           . . . . . . . . . . . . . . . . . . . . . . . . . . oighotline@doc.gov




                                                                            - 81 -
                                        Reporting Requirements




                                            INDEX

 The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
 semiannual reports. The requirements are listed below and indexed to the applicable pages.


Section                                            Topic                                      Page

 4(a)(2)                Review of Legislation and Regulations                                     83

 5(a)(1)                Significant Problems, Abuses, and Deficiencies                         18-80

 5(a)(2)                Significant Recommendations for Corrective Action                      18-80

 5(a)(3)                Prior Significant Recommendations Unimplemented                           83

 5(a)(4)                Matters Referred to Prosecutive Authorities                            18-80

 5(a)(5) and            Information or Assistance Refused                                         84

 5(a)(6)                Listing of Audit Reports                                               91-97

 5(a)(7)                Summary of Significant Reports                                         18-80

 5(a)(8)                Audit Reports—Questioned Costs                                         87, 90

 5(a)(9)                Audit Reports—Funds to Be Put to Better Use                            88, 89

 5(a)(10)               Prior Audit Reports Unresolved                                         15, 84

 5(a)(11)               Significant Revised Management Decisions                               16, 85

 5(a)(12)               Significant Management Decisions with Which the OIG Disagreed             85




                                               - 82 -
                                                                               Reporting Requirements




Section 4(a)(2): Review of
Legislation and Regulations
         This section requires the Inspector General of each agency to review
existing and proposed legislation and regulations relating to that agency's
programs and operations. Based on that review, the Inspector General is
required to make recommendations in the semiannual report concerning the
impact of such legislation or regulations on the economy and efficiency in
the administration of programs and operations administered or financed by
the agency or on the prevention and detection of fraud and abuse in those
programs and operations.
         We commented on various legislative proposals during the semi-
annual period, including bills to establish both PTO and NOAA’s Seafood
Inspection program as performance-based organizations (see pages 57 and
50). In addition, we have made numerous recommendations relating to the
dismantling of the NOAA fleet (see page 2) and NOAA Corps (see page 3),
as well as a specific recommendation to amend the Magnuson-Stevens Act
to allow NMFS to collect fishery permit fees (see page 45).

Section 5(a)(3): Prior Significant
Recommendations Unimplemented
        This section requires an identification of each significant recom-
mendation described in previous semiannual reports on which corrective
action has not been completed. Section 5(b) requires that the Secretary
transmit to the Congress statistical tables for audit reports for which no final
action has been taken, plus a statement that includes an explanation of the
reasons final action has not been taken on each such audit report, except
when the management decision was made within the preceding year.
         Prior Inspector General semiannual reports have explained that to
include a list of all significant unimplemented recommendations in this
report would be duplicative, costly, unwieldy, and of limited value to the
Congress. Any list would have meaning only if explanations detailed
whether adequate progress is being made to implement each agreed-upon
corrective action. Also, as this Inspector General's semiannual report is
being prepared, management is in the process of updating the Department's
Audit Tracking System as of March 31, 1997, based on semiannual status
reports due from the bureaus in mid-April. An accurate database is therefore
not available to the OIG for reference here. However, additional information
on the status of any audit recommendations may be obtained through the
OIG's Office of Audits.


                                                          - 83 -
Reporting Requirements




                     Sections 5(a)(5) and 6(b)(2): Information
                     or Assistance Refused
                             These sections require a summary of each report to the Secretary
                     when access, information, or assistance has been unreasonably refused or
                     not provided. There were no such instances during this semiannual period,
                     and no reports to the Secretary.

                     Section 5(a)(10): Prior Audit Reports Unresolved
                              This section requires a summary of each audit report issued before
                     the commencement of the reporting period for which no management
                     decision has been made by the end of the reporting period (including the date
                     and title of each such report), an explanation of the reasons such
                     management decision has not been made, and a statement concerning the
                     desired timetable for achieving a management decision on each such report.
                             As of March 31, 1997, three performance audits, one financial
                     assistance audit, one financial statements audit, and two preaward contract
                     audits were in this category, as discussed below. The unresolved financial
                     assistance audit was a processed A-133 audit.

                     Performance Audit
                              One unresolved report addresses NWS’s plans for streamlining its
                     headquarters and support operations staff. This report was resolved shortly
                     after the end of the semiannual period, as discussed on page 51. Another
                     report covered the NWS Tsunami Warning Program, and is discussed on
                     page 52. The third report addresses the recovery of costs for sponsored
                     research in the Office of Oceanic and Atmospheric Research; details can be
                     found on page 51.

                     Financial Assistance Audit
                              The unresolved audit relates to a NOAA financial assistance award.
                     An audit resolution proposal has been submitted; however, OIG-NOAA
                     discussions were not able to resolve the report on a timely basis. Additional
                     details are presented on page 52.

                     Financial Statements Audit
                            The unresolved audit involves General Administration’s Salaries
                     and Expenses Fund Statement of Financial Position as of September 31,
                     1995. Details can be found on page 80.


                                      - 84 -
                                                                               Reporting Requirements




Preaward Contract Audits

         The Department’s Audit Tracking System recorded two preaward
contract audits unresolved in excess of six months, including one presented
in the prior semiannual report. These audits, based on DCAA reviews of
contract proposals, are resolved when a contracting officer takes final action
on the pending procurement, such as awarding a contract or issuing a con-
tract modification. Often, the procurement action will resolve multiple
audits involving competing proposals submitted in response to solicitations.
        The two unresolved preaward contract audits are listed below.
!       ADD-7348-5-0060, June 6, 1995
!       ADD-8350-6-0082, August 6, 1996

Section 5(a)(11): Significant Revised Management
Decisions
         This section requires a description and explanation of the reasons
for any significant revised management decision made during the reporting
period. Department Administrative Order 213-5, “Audit Resolution and
Follow-up,” provides procedures for revision of a management decision. For
performance audits, the OIG must be consulted and must approve in
advance any modification to an audit action plan. For financial assistance
audits, the OIG must concur with any decision that would change the audit
resolution proposal in response to an appeal by the recipient.
        During the reporting period, no modifications were submitted to the
OIG for review. The decisions issued on the three appeals of audit-related
debts were finalized with the full participation and concurrence of the OIG.

Section 5(a)(12): Significant Management
Decisions with Which the OIG Disagreed
      This section requires information concerning any significant
management decision with which the Inspector General is in disagreement.
         DAO 213-5 provides procedures for the elevation of unresolved
audit recommendations to higher levels of Department and OIG manage-
ment, including an Audit Resolution Council. During this period, no audit
issues were referred to the Council.




                                                         - 85 -
                                                   Tables and Appendixes



                                                 Tables                                                          Page
    1. Audits with Questioned Costs                                                                                87

    2. Audits with Recommendations That Funds Be Put to Better Use                                                 88

    3. Preaward Contract Audits with Recommendations That Funds Be Put to Better Use                               89

    4. Postaward Contract Audits with Questioned Costs                                                             90

                                              Appendixes

    A. Office of Inspector General Reports                                                                         91

      A-1. Performance Audits                                                                                      91

      A-2. Inspections                                                                                             92

      A-3. Financial Statements Audits                                                                             93

      A-4. Financial Assistance Audits                                                                             94

    B. Processed Reports                                                                                           96

      B-1. Processed Financial Assistance Audits                                                                   97

      B-2. Processed Contract Audits with Questioned Costs or Funds to Be Put to Better Use                        97

                                               Definitions

The term questioned cost refers to a cost that is questioned by the OIG because of (1) an alleged violation of a
provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation;
or (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
Questioned costs include unsupported costs.

The term recommendation that funds be put to better use refers to a recommendation by the OIG that funds could
be used more efficiently if Commerce management took action to implement and complete the recommendation,
including (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest
subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended
improvements related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in
preaward reviews of contracts or grant agreements; or (6) any other savings that are specifically identified.

The term management decision refers to management’s evaluation of the findings and recommendations included in
the audit report and the issuance of a final decision by management concerning its response.




                                                         - 86 -
                                                                               Tables and Appendixes




                             Table 1: Audits with Questioned Costs

                                                                                  Questioned          Unsupported
                   Report Category                                  Number
                                                                                    Costs                Costs
A. Reports for which no management decision had been
                                                                       13            $2,842,525            $1,167,475
   made by the commencement of the reporting period

B. Reports issued during the reporting period                          15             4,787,979               874,042

   Total reports (A + B) requiring a management
                                                                       28             7,630,504             2,041,517
   decision during the reporting period

C. Reports for which a management decision was made
                                                                       18             3,010,007             1,209,149
   during the reporting period

   i. Value of disallowed costs                                                       1,575,721               724,666


   ii. Value of costs not disallowed                                                  1,434,286               484,483

D. Reports for which no management decision had been
                                                                       10            $4,620,497              $832,368
   made by the end of the reporting period
   Notes and Explanations:
   In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
   than the original recommendations.
   Two audit reports included in this table are also included in the reports with recommendations that funds be put
   to better use (see Table 2). However, the dollar amounts do not overlap.
   No postaward contract audits are included in this table; instead, those audits are listed in Table 4.




                                                       - 87 -
Tables and Appendixes




                               Table 2: Audits with Recommendations
                                  That Funds Be Put to Better Use

                             Report Category                                            Number                Value

  A. Reports for which no management decision had been made by the
                                                                                             6            $125,029,715
     commencement of the reporting period

  B. Reports issued during the reporting period                                             12              139,755,164

     Total reports (A + B) requiring a management decision during the
                                                                                            18              264,784,879
     reporting period

  C. Reports for which a management decision was made during the
                                                                                             5               68,734,915
     reporting period

     i. Value of recommendations agreed to by management                                                     68,469,715


     ii. Value of recommendations not agreed to by management                                                    265,200

  D. Reports for which no management decision had been made by the
                                                                                            13            $196,049,964
     end of the reporting period
     Notes and Explanations:
     In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
     than the original recommendations.
     Two audit reports included in this table are also included in the reports with questioned costs (see Table 1).
     However, the dollar amounts do not overlap.
     No preaward contract audits are included in this table; instead, those audits are listed in Table 3.




                                                         - 88 -
                                                                                Tables and Appendixes




                         Table 3: Preaward Contract Audits with
                    Recommendations That Funds Be Put to Better Use

                           Report Category                                            Number                Value

A. Reports for which no management decision had been made by the
                                                                                          12               $2,202,264
   commencement of the reporting period

B. Reports issued during the reporting period                                              4                   219,264

   Total reports (A + B) requiring a management decision during the
                                                                                          16                 2,421,528
   reporting period

C. Reports for which a management decision was made during the
                                                                                          14                 1,943,438
   reporting period

   i. Value of recommendations agreed to by management                                                         364,763


   ii. Value of recommendations not agreed to by management                                                    679,048


   iii. Value of reports on proposals that were not awarded contracts                                          907,227

D. Reports for which no management decision had been made by the
                                                                                           2                 $478,090
   end of the reporting period
   Notes and Explanations:
   Preaward audits of contracts include results of audits performed for the OIG by other agencies.
   In Category B, all reports were prepared for the OIG by the Defense Contract Audit Agency.
   When there are multiple proposals for the same contract, we report only the proposal with the lowest dollar value
   for funds to be put to better use; however, in Category C, lines i-ii, we report the value of the awarded contract.
   In Category C, lines i-iii do not always equal the total on line C since resolution may result in values greater than
   the original recommendations.




                                                       - 89 -
Tables and Appendixes




                                  Table 4: Postaward Contract Audits
                                        with Questioned Costs
                                                                                      Questioned         Unsupported
                      Report Category                                  Number
                                                                                        Costs               Costs
  A. Reports for which no management decision had been
                                                                           1            $2,508,364           $2,452,340
     made by the commencement of the reporting period

  B. Reports issued during the reporting period                            --                      --                      --

     Total reports (A + B) requiring a management decision
                                                                           1              2,508,364            2,452,340
     during the reporting period

  C. Reports for which a management decision was made
                                                                           1              2,508,364            2,452,340
     during the reporting period

     i. Value of disallowed costs                                                           286,050              286,050


     ii. Value of costs not disallowed                                                    2,222,314            2,166,290

  D. Reports for which no management decision had been
                                                                           --                      --                      --
     made by the end of the reporting period
     Notes and Explanations:
     In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
     than the original recommendations.




                                                         - 90 -
                                                                           Tables and Appendixes




                       Appendix A. Office of Inspector General Reports

                                       Type                                           Number     Appendix
  Performance Audits                                                                    8           A-1

  Inspections                                                                           6           A-2

  Financial Statements Audits                                                          15           A-3

  Financial Assistance Audits                                                          22           A-4

                                       Total                                           51




                                 Appendix A-1. Performance Audits

                                                                                               Funds to Be
      Agency                            Subject                         Number         Date    Put to Better
                                                                                                   Use
International Trade    Advocacy Center: Achievements Need Better    TID-8375-7-0001    03/97               --
Administration         Documentation

National Oceanic       Expanded Vessel Buyout Program Is Not        ENT-8657-7-0001    01/97     $23,000,000
and Atmospheric        Needed
Administration
                       Weather Service Modernization Contract to    ENT-8749-7-0001    03/97       6,300,000
                       Be Reduced

                       Northwest Emergency Assistance Plan          STL-8518-7-0001    03/97      10,500,000
                       Needs Focus

                       NMFS Should Pursue New Initiatives for Its   STL-8703-7-0001    03/97      95,000,000
                       Fishery Programs

National               “Information Superhighway” Program           TID-8427-7-0001    01/97               --
Telecommunications     Oversight Strengthened
and Information
Administration

Office of the          Office of Acquisition Policy and Programs    EDD-8279-7-0001    12/96               --
Secretary              Needs to Reevaluate Its Mission and
                       Organization

                       Commerce Employees Met AUO Criteria;         EDD-9290-7-0001    02/97               --
                       Approving Officials Should Document
                       Decisions



                                                      - 91 -
Tables and Appendixes




                                        Appendix A-2. Inspections

                                                                                              Funds to Be
     Agency                               Subject                         Number      Date    Put to Better
                                                                                                  Use
 Bureau of Export   Commerce’s Role in Administering the Defense        IPE-8716      03/97               --
 Administration     Priorities and Allocation System Needs
                    Strengthening

 National Oceanic   Geostationary Satellite Acquisition Strategy        OSE-8784      03/97               --
 and Atmospheric    Improved, but Store-in-Orbit Approach Needs
 Administration     Reevaluation

                    Excess Funding in the Polar Orbiting Satellite      OSE-8797      03/97     $101,300,000
                    Program

 Technology         Continued Progress of NIST’s Capital Improvements   IPE-8377(3)   02/97               --
 Administration     Facilities Program Endangered by Certain
                    Inadequately Justified Plans and Decisions

                    NTIS’s Traditional Missions Are Well Run, but       IPE-8497      03/97               --
                    Management Attention Is Needed for Its
                    Expansionary Activities

                    Management and Procurement Deficiencies Related     IPE-9364      03/97               --
                    to the CyberFile Project




                                                        - 92 -
                                                                            Tables and Appendixes




                        Appendix A-3. Financial Statements Audits

        Agency                               Subject                               Number        Date
Bureau of Export       Financial Statements for FY 1996                       FSC-8834-7-0001   02/97
Administration

Economic               Financial Statements for FY 1996                       FSC-8837-7-0001   02/97
Development
Administration

Economics and          BEA’s and ESA’s Combined Financial Statements for      FSD-8874-7-0001   02/97
Statistics             FY 1996
Administration
                       Census Financial Statements for FY 1996                FSC-8836-7-0001   02/97

International Trade    Financial Statements for FY 1996                       FSC-8838-7-0001   02/97
Administration

Minority Business      Financial Statements for FY 1996                       FSC-8839-7-0001   02/97
Development Agency

National Oceanic       Financial Statements for FY 1996                       FSC-8841-7-0001   02/97
and Atmospheric
Administration

National               Financial Statements for FY 1996                       FSC-8842-7-0001   02/97
Telecommunications
and Information
Administration

Office of the          Department of Commerce’s Consolidating Financial       FSD-9355-7-0001   03/97
Secretary              Statements for FY 1996

                       General Administration’s Working Capital Fund and      FSD-8873-7-0001   02/97
                       Salaries and Expenses Fund Financial Statements for
                       FY 1996

                       Gifts and Bequests Trust Fund’s Principal Statements   FSD-8707-7-0001   10/96
                       as of September 30, 1995

Patent and Trademark   Financial Statements for FY 1996                       FSD-8833-7-0001   02/97
Office

Technology             TA Statement of Financial Position for FY 1995 and     FSC-8835-7-0001   02/97
Administration         Financial Statements for FY 1996

                       NIST Financial Statements for FY 1996                  FSC-8840-7-0001   02/97

                       NTIS Financial Statements for FY 1996                  FSC-8843-7-0001   02/97




                                                   - 93 -
 Tables and Appendixes




                                           Appendix A-4. Financial Assistance Audits

                                                                                                                   Ques-            Unsup-            Funds to
        Agency                                  Auditee                           Number             Date          tioned           ported            Be Put to
                                                                                                                   Costs            Costs             Better Use
Economic                        Fulton County, GA                                AT-8881-           10/96                     --              --           $5,200
Development                                                                      7-0001
Administration
                                Charleston, SC, Hurricane Hugo                   AT-8588-           12/96        $1,142,932          $33,956                   --
                                Project                                          7-0001

                                Los Angeles County Community                     STL-7625-          01/97          1,350,589                  --        1,982,268
                                Development Commission and the                   7-0001
                                Economic Development Corp., CA

                                City of Mathis, TX                               DEN-7037-          02/97            845,000         688,141                   --
                                                                                 7-0001

                                Clarion County Economic                          AT-8435-           03/97                     --              --          865,934
                                Development Corp., PA                            7-0001

                                Southern Development Council,                    AT-9265-           03/97                     --              --        1,144,668
                                Inc., AL                                         7-0001

International Trade             Food Processing Machinery &                      ADD-7756-          11/96              48,191            6,423                 --
Administration                  Supplies Association, VA                         7-0001

Minority Business               Cordoba Corp. / LA MEGA Center,                  AT-8882-7-         02/97            605,231           93,372                  --
Development Agency              CA                                               0001

                                David J. Burgos & Associates,                    AT-9283-7-         03/97              16,132                 --               --
                                Inc., MBDC, DC                                   0001

National                        Public Library of Charlotte and                  AT-8689-           02/97            577,077           18,655                  --
Telecommunications              Mecklenburg County, NC                           7-0001
and Information
Administration

Technology                      Applied Parallel Technologies, Inc.              DEN-8731-          10/96            131,719                  --               --
Administration -                MA                                               7-0001
NIST
                                AlliedSignal, Inc., Ceramic                      DEN-8825-          10/96                     --              --               --
                                Components, CA                                   7-0001

                                GenCorp, OH                                      DEN-8845-          12/96                     --              --          767,633
                                                                                 7-0001

Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




                                                                            - 94 -
                                                                                                            Tables and Appendixes




                                Appendix A-4. Financial Assistance Audits—Continued

                                                                                                                    Ques-            Unsup-           Funds to
                                                                                                                    tioned           ported           Be Put to
        Agency                                    Auditee                            Number            Date
                                                                                                                    Costs            Costs             Better
                                                                                                                                                       Use
Technology                       Saginaw Machine Systems, Inc., MI                  DEN-9134-          12/96                  --               --             --
Administration-                                                                     7-0001
NIST
                                 Nonvolatile Electronics, Inc., MN                  DEN-9207-          12/96                  --               --             --
                                                                                    7-0001

                                 North Carolina Alliance for                        DEN-9336-          12/96                  --               --             --
                                 Competitive Technologies                           7-0001

                                 Macro International, MD                            DEN-9260-          01/97                  --               --             --
                                                                                    7-0001

                                 North Dakota Manufacturing                         DEN-9337-          01/97                  --               --             --
                                 Technology Partnership                             7-0001

                                 Spire Corporation, MA                              DEN-9003-          02/97             7,162                 --             --
                                                                                    7-0001

                                 HelpMate Robotics Inc., CT                         DEN-9048-          02/97           32,200           32,200                --
                                                                                    7-0001

                                 Communication Intelligence                         DEN-9133-          02/97             6,001                 --
                                                                                                                                                              --
                                 Corporation, CA                                    7-0001

                                 The Corporation for Manufacturing                  DEN-9492-          03/97                  --               --             --
                                 Excellence, CA                                     7-0001

Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




                                                                          - 95 -
Tables and Appendixes




                                      Appendix B. Processed Reports

 The Office of Inspector General reviewed and accepted 610 financial related audit reports prepared by independent
 public accountants and local, state, and other federal auditors. The reports processed with questioned costs or with
 recommendations that funds be put to better use are listed in Appendixes B-1 and B-2.

                                                                    OMB A-           Contract Audits
                           Agency                                  128 and A-                                     Total
                                                                   133 Audits    Preaward       Postaward

 Economic Development Administration                                      250             --               --           250

 International Trade Administration                                         9             --               --             9

 Minority Business Development Agency                                       9             --               --             9

 National Oceanic and Atmospheric Administration                           41              9                4           54

 National Telecommunications and Information                               48             --               --           48
 Administration

 Technology Administration                                                 56             --                3           59

 Multi-Agency                                                              59             --               --           59

 Agency Not Identified                                                    122             --               --           122

 Total                                                                    594              9                7           610




                                                          - 96 -
                                                                                                         Tables and Appendixes




                             Appendix B-1. Processed Financial Assistance Audits

                                                                                                              Ques-          Unsup-             Funds to
    Agency                             Auditee                            Number                 Date         tioned         ported            Be Put to
                                                                                                              Costs          Costs             Better Use
Economic                  City of South Bend, IN                    ATL-9999-7-0074             12/96                   --              --                     --
Development
Administration            BCKP Regional Inter-                      ATL-9999-7-0072             03/97                   --              --            $65,773
                          governmental Council, WV

                          Old Colony Planning                       ATL-9999-7-0295             03/97                   --              --              5,810
                          Council, MA

                          Upper Cumberland                          ATL-9999-7-0018             03/97         $16,220                   --                     --
                          Development District, TN

                          Upper Savannah Council of                 ATL-9999-7-0514             03/97                   --              --
                                                                                                                                                      117,878
                          Governments, SC

National                  University of Hawaii                      ATL-9999-7-0042             12/96                2,493              --                     --
Oceanic and
Atmospheric               Woods Hole Oceanographic                  ATL-9999-7-0491             03/97                5,737              --                     --
Administration            Institution, MA

Technology                Lamb Technicon, MI                        ATL-9999-7-0614             03/97                1,295      $1,295                         --
Administration

Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




                  Appendix B-2. Processed Contract Audits with Questioned Costs
                                 or Funds to Be Put to Better Use
                                                                                                     Ques-              Unsup-                Funds to
     Agency                        Number                         Type              Date            tioned              ported                Be Put to
                                                                                                     Costs              Costs                Better Use
National                  ARA-8350-7-0004                      Preaward             11/96                       --                 --            $52,528
Oceanic and
Atmospheric               ARA-8350-7-0007                      Preaward             12/96                       --                 --                 63,202
Administration
                          ADM-8350-7-0011                      Preaward             01/97                       --                 --                 52,684

                          ADM-8350-7-0012                      Preaward             01/97                       --                 --                 50,850
Notes: These audits were performed for the OIG by DCAA. This list contains all processed preaward contract audits with funds to be put to better use.
However, when there are multiple proposals for the same contract, only the proposal with the lowest dollar value is reported in Table 3, page 89.




                                                                           - 97 -
                                                                           Glossary of Abbreviations



AML . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Advanced Measurement Laboratory
ASOS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Automated Surface Observing System
ATP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Advanced Technology Program
ATPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . American Technology Preeminence Act
AUO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . administratively uncontrollable overtime
AWIPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Advanced Weather Interactive Processing System
BEA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Economic Analysis
BXA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Export Administration
CAMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Commerce Administrative Management System
CFO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Chief Financial Officer
CIFP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Capital Improvements Facilities Program
CPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . certified public accounting
DCAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Defense Contract Audit Agency
DPAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Defense Priorities and Allocation System
EDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Economic Development Administration
ESA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Economics and Statistics Administration
FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Aviation Administration
FSL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Forecast Systems Laboratory
G&B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Gifts and Bequests
GMRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Government Management Reform Act
GOES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Geostationary Operational Environmental Satellite
GPRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Government Performance and Results Act
IG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Inspector General
IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Internal Revenue Service
ITA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . International Trade Administration
MBDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Minority Business Development Agency
MEGA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Minority Enterprise Growth Assistance
NASA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Aeronautics and Space Administration
NEAP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Northwest Emergency Assistance Plan
NIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Institute of Standards and Technology
NMFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Marine Fisheries Service
NOAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Oceanic and Atmospheric Administration
NTIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Telecommunications and Information Administration
NTIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Technical Information Service
NWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Weather Service
OAPP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Acquisition Policy and Programs
OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Management and Budget
OTIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Telecommunications and Information Applications
PBO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . performance based organization
POES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Polar-orbiting Operational Environmental Satellite
PTO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Patent and Trademark Office
RLF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . revolving loan fund
S&E . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Salaries and Expenses
TA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Technology Administration
US&FCS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. and Foreign Commercial Service
WCF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Working Capital Fund

                                                                                   - 98 -
